<html>
<title> - CATASTROPHIC PREPAREDNESS: HOW READY IS FEMA FOR THE NEXT BIG DISASTER?</title>
<body><pre>[Senate Hearing 112-222]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-222
 
CATASTROPHIC PREPAREDNESS: HOW READY IS FEMA FOR THE NEXT BIG DISASTER?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
67-118                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5b4c537c5f494f485459504c125f535112">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
   Mary Beth Schultz, Associate Staff Director and Chief Council for 
                                Homeland
                   Security Preparedness and Response
              Jason T. Barnosky, Professional Staff Member
             Elyse F. Greenwald, Professional Staff Member
               Nicholas A. Rossi, Minority Staff Director
           Robert L. Strayer, Minority Deputy Staff Director
   Brendan P. Shields, Minority Director of Homeland Security Policy
        Christopher J. Keach, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Landrieu.............................................     5
    Senator Brown................................................    22
    Senator Akaka................................................    25
Prepared statements:
    Senator Lieberman............................................    39
    Senator Collins..............................................    42
    Senator Landrieu.............................................    45

                               WITNESSES
                        Thursday, March 17, 2011

Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................     6
Hon. Richard L. Skinner, Former Inspector General of the U.S. 
  Department of Homeland Security................................    10
William O. Jenkins, Jr., Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................    15

                     Alphabetical List of Witnesses

Fugate, Hon. W. Craig:
    Testimony....................................................     6
    Prepared statement...........................................    49
Jenkins, William O. Jr.:
    Testimony....................................................    15
    Prepared statement...........................................    89
Skinner, Hon. Richard L.:
    Testimony....................................................    10
    Prepared statement...........................................    66

                                APPENDIX

Chart titled ``Scorecare for Selected FEMA Preparedness Areas,'' 
  submitted by Senator Lieberman.................................    41
Letter to President Obama, dated March 17, 2011, submitted by 
  Senator Landrieu...............................................    47
Report titled ``FEMA's Preparedness for the Next Catastrophic 
  Disaster--An Update,'' Department of Homeland Security, Office 
  of Inspector General, September 2010...........................   103
Responses to post-hearing questions for the Record from:
    Mr. Fugate...................................................   185


CATASTROPHIC PREPAREDNESS: HOW READY IS FEMA FOR THE NEXT BIG DISASTER?

                              ----------                              


                        THURSDAY, MARCH 17, 2011

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:15 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Landrieu, Collins, and 
Brown.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. I thank 
everyone for their patience. As you know, we had two votes on 
the floor, so we delayed the start of the hearing. I welcome 
everyone.
    We convened this hearing, which had been long planned, long 
scheduled on the ability of the Federal Emergency Management 
Agency (FEMA) to respond to a major catastrophe against the 
compelling backdrop of the tragically catastrophic events 
unfolding in Japan, an earthquake and tsunami in rapid 
succession that have already resulted in twice as many deaths 
as al-Qaeda's attack on America on September 11, 2001. And, of 
course, no one believes that the deaths and the finding of the 
dead is over yet.
    The earthquake and tsunami have also caused fires and 
explosions at nuclear power plants that could have nightmarish 
consequences for Japan and perhaps other countries as well. 
Japan has been considered the gold standard of earthquake 
preparedness because they have had repeated experience with 
earthquakes, but this earthquake registered 9.0 on the Richter 
scale.
    When I say that, I remember that the great San Francisco 
earthquake of 1906 was apparently 7.6 on the Richter scale, so 
you can imagine the consequences here. The waves of disaster 
set off by this earthquake in Japan have exceeded the country's 
extraordinary preparations. So the events of the past week in 
Japan lend a sense of urgency to our hearing today as we ask: 
How well prepared is America for a catastrophe, perhaps one 
equal to that occurring now in Japan?
    Our Committee called its 2006 report about FEMA's response 
to Hurricane Katrina, ``A Nation Still Unprepared,'' and we 
were then unprepared. And that lack of preparedness shook the 
confidence of the American people who naturally asked why their 
government could not help some of their fellow citizens when 
they needed it the most.
    This Committee's extensive investigation into the failure 
of all levels of government to prepare for and respond 
effectively to Hurricane Katrina found a long and troubling 
list of problems, not least of which was that FEMA, in our 
opinion, was not and never had been capable of responding to a 
catastrophe like Hurricane Katrina. And I learned that when it 
comes to emergency preparedness and response, two words that I 
thought meant the same do not: Disaster and catastrophe.
    Preparedness for most disasters, which FEMA was and 
certainly is capable of, is different from preparedness for 
catastrophes like Hurricane Katrina. After our investigation, 
the Committee drafted and Congress passed the Post-Katrina 
Emergency Management Reform Act of 2006. Our aim was to rebuild 
FEMA into a stronger, more capable agency. Five years later, I 
am convinced that FEMA has, in fact, become stronger and more 
capable.
    But is it strong enough to respond adequately if a 
catastrophe like the one currently in Japan struck the United 
States? I think that is the question we want to ask our 
witnesses today.
    Last September, then-Inspector General (IG) of the 
Department of Homeland Security (DHS), Richard Skinner, 
released a report on FEMA's transformation since Hurricane 
Katrina. Mr. Skinner has since retired from public service 
after a long and distinguished career, but he is fortunately 
back with us to testify today. His report concluded last 
September that FEMA has made some form of progress in almost 
all areas where reform was needed, but that FEMA's management, 
to speak broadly, still needed improvement.\1\
---------------------------------------------------------------------------
    \1\ The report referenced by Senator Lieberman can be found in the 
Appendix on page 103.
---------------------------------------------------------------------------
    While today's hearing is focused on FEMA, I think it is 
important to say that response to and recovery from a disaster 
or a catastrophe in the United States is the responsibility of 
a lot of other agencies and other people besides FEMA. Other 
Federal agencies, State and local government, the private 
sector, and, in fact, in some sense, every affected American 
have roles to play. And many of them also need to improve their 
capabilities.
    On a positive note, just recently, the Departments of 
Defense and Homeland Security, and the congressionally-mandated 
Council of Governors recently signed off on a very important 
plan establishing clear rules for when both National Guard and 
military forces can jointly respond after a disaster. This 
means that in a large disaster or catastrophe we will have the 
ability to call on the resources of the Department of Defense 
in a more timely and effective manner.
    Five years after Hurricane Katrina, again I conclude, we 
are better prepared for a catastrophe than we have ever been. 
But the epic disaster in Japan reminds us that FEMA must 
continue to improve as both old and new threats loom, some from 
nature like the earthquake and tsunami, others from human 
enemies like the one we faced on September 11, 2001. I know 
Administrator Fugate and the dedicated public servants with 
whom he works at FEMA will continue to chart a successful path 
forward. Thank you.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. The earthquake 
and tsunami that struck Japan last week destroyed entire 
communities, killed thousands of people, and caused the release 
of radiation at nuclear power plants. Our thoughts are with the 
Japanese people and with the rescuers and responders, including 
units from our own country. This horrific natural disaster 
reminds us that we need to do our best to prepare for the 
unpredictable, and that is the focus of today's hearing.
    In the past year, we have witnessed three disasters 
involving the development and use of emergency resources. The 
proper word probably is catastrophes, as the Chairman has said. 
First, the explosion aboard the Deepwater Horizon oil rig last 
spring led to economic and environmental damages that have yet 
to be completely tallied. A West Virginia coal mine explosion 
killed 29 people in August and was the worst in decades. And 
now there is uncertainty and fear in Japan about the amounts of 
radiation emitted from nuclear power plants in the area hit by 
the tsunami.
    In addition to the humanitarian crisis, the aftermath of 
the earthquake has raised concerns about the safety of nuclear 
power at a time when it is being revisited as an alternative to 
fossil fuels and as a means of lowering greenhouse gas 
emissions. Regardless of whether a disaster strikes our energy 
supply or another sector of our economy or part of our Nation, 
we need to be prepared.
    We do not know when the next disaster will hit. We do know 
that the U.S. Geological Survey estimates that within the next 
30 years, the probability is 94 percent chance that an 
earthquake of 7.0 magnitude, or greater, will occur in 
California. We know that inevitably there will be hurricanes, 
floods, and tornados, and we recognize that a terrorist attack 
using a weapon of mass destruction in a large city would 
certainly strain our capabilities.
    Today, I look forward to hearing from our witnesses how 
well-equipped the United States is for any catastrophic 
disaster regardless of the cause. What is the level of our 
preparedness to protect important energy sources? What are we 
learning from the nuclear accidents in Japan and the Gulf Coast 
oil spill in the past year? How well are we prepared for a 
major earthquake in this country? Do we have the communication 
and medical systems necessary to respond to the explosion of a 
dirty bomb?
    More than 4 years ago, Congress enacted the Post-Katrina 
Emergency Management Reform Act which the Chairman and I 
authored. That bill was designed to take the hard-learned 
lessons of Hurricane Katrina and bring about improvements in 
our Nation's overall emergency preparedness and response 
systems.
    Our law has indeed improved FEMA's disaster response 
capabilities. From major floods to wildfires, we have witnessed 
improvements throughout the country. In Maine, I saw firsthand 
this progress in FEMA's responses to the Patriot's Day storm of 
2007, the spring 2008 floods in Aroostook County, and other 
disasters since then.
    FEMA certainly has become a more effective, better led 
agency during the past 4 years. But nevertheless, questions 
remain about our ability to handle a mega-disaster. I also have 
serious concerns about FEMA's stewardship of Federal funds. One 
of those hard-learned lessons from the aftermath of Hurricane 
Katrina was that FEMA's assistance programs were highly 
vulnerable to fraud and improper payments.
    Our Committee, with the assistance of the IG and the 
Government Accountability Office (GAO), documented more than a 
billion dollars in misspent funds. In some cases, these 
taxpayer dollars were literally gambled away. Funds were also 
spent on liquor, bail bonds, and diamond engagement rings. FEMA 
also paid millions of dollars for housing assistance to 
hundreds of applicants who apparently resided in State and 
Federal prisons.
    While victims certainly should receive prompt, appropriate 
relief, FEMA needs to strike that careful balance between 
expediting relief and ensuring that criminals do not defraud 
the system, and that means having strong internal controls.
    Unfortunately, safeguarding taxpayer dollars remains an 
area in which FEMA has yet to achieve success. A December 2010 
report by the Inspector General revealed that FEMA had stopped 
attempting to recover improper disaster assistance payments 
made after Hurricanes Katrina and Rita and subsequent 
disasters.
    The IG identified approximately 160,000 applicants that had 
received improper disaster assistance payments totaling more 
than $643 million. Even more disturbing, FEMA's efforts to 
recoup these improper payments ended in 2007 after a court 
found that its recovery procedures were inadequate. More than 3 
years later, a new process for recovering these payments has 
only been initiated this week.
    I do want to point out some bright spots in the September 
2010 DHS Inspector General's report. In particular, the IG 
found that FEMA had made substantial progress, and we see it on 
the chart,\1\ in improving emergency communications. Ensuring 
that first responders can communicate during a disaster is 
vital. Indeed, when communications failed after September 11, 
2001, and during Hurricane Katrina, it cost lives.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Collins appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    The IG also highlights the effectiveness of the regional 
emergency communications working groups in each of the 10 FEMA 
regions. Since I pushed very hard for this reform, I am very 
pleased to see the progress that has been made. This October 
will mark the 5th anniversary of the Post-Katrina Emergency 
Management Reform Act. By that time, I hope that FEMA will have 
made significant progress in improving our Nation's 
preparedness for the next catastrophe.
    Finally I want to join the Chairman in thanking former 
Inspector General Skinner for his extraordinary service, not 
just to the department, but throughout his career to our 
country. He has certainly been a valuable asset as our 
Committee conducted its investigations and oversights of the 
department, and I am grateful for his aggressive approach to 
combating waste, fraud, and abuse, and helping to improve the 
management of programs at DHS. So, Mr. Skinner, thank you for 
your service. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Landrieu, you have been so involved in these 
matters regarding FEMA, obviously, ever since Hurricane 
Katrina, would you like to make an opening statement?

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, and Ranking 
Member Collins. I really appreciate it because I have to get 
back to the floor. I am managing a bill on the floor and unable 
to stay for the remainder of the hearing, so I really 
appreciate it and I will try to be very brief, but there are a 
few important things that I would like to share.
    First of all, I think the calling of this hearing is very 
important and I thank the Chairman and Ranking Member. Their 
attention after the Hurricanes Katrina, Rita, Gustav, and Ike 
disasters, and many other disasters, has been important to all 
of us as we have tried to recover along the Gulf Coast and in 
other States and communities. Your efforts have really 
strengthened FEMA's response capabilities.
    But I do want to point to a couple of things that I am 
concerned about. Looking at the situation, Mr. Chairman, in 
Japan reminds us again that disasters of large magnitudes, 
catastrophic disasters, can and will occur. What concerns me is 
right now in this Congress, there are efforts to significantly 
reduce funding for the Department of Homeland Security to cover 
an existing shortfall in FEMA's Disaster Relief Fund (DRF).
    It does not make any sense to me that the House of 
Representatives would cut funding from these important 
programs, $1.5 billion in additional funding is needed just to 
meet the cost of eligible projects for this year, and the House 
has proposed that we pay for these projects from past disasters 
by using money that we are supposed to be using to prepare for 
future disasters.
    I have sent a letter to the President.\1\ I thank the 
Chairman for signing this letter and would ask the other 
Members of this Committee to review it, if you could, because 
we are going to find ourselves back in the same position we 
were before Hurricane Katrina struck, which is under-funding 
our preparedness for future disasters and not being ready when 
it happens.
---------------------------------------------------------------------------
    \1\ The letter to President Obama referenced by Senator Landrieu 
appears in the Appendix on page 47.
---------------------------------------------------------------------------
    In addition, the House Continuing Resolution (CR) is 
cutting $68 million for FEMA Management and Administration 
including information technology (IT). To Senator Collins' 
point, this is exactly the money that is necessary for FEMA to 
keep up their computer software and reporting mechanisms to cut 
down on fraud and abuse. So on one hand, we are asking them to 
come down hard on fraud and abuse; on the other hand, we are 
taking away their money that enables them to do that. That is 
not right, and it is not fair.
    In addition, it is projected that the FEMA Disaster Relief 
Fund is going to run out of money 3 months before the fiscal 
year ends. This happened last year, and, Mr. Chairman, if we do 
not weigh in with the Administration and with our colleagues on 
both sides of the aisle, it is going to happen again.
    The only final thing I will say--and I am looking forward 
to reading the details of the report--is that there is some 
encouraging news and mostly because you and Senator Collins 
have done such a good job of staying on point. I am proud that 
as a Subcommittee chairman, I held literally dozens of hearings 
in 4 years on this exact subject, and hopefully, some of the 
hearings that we held contributed to some of the improvements 
we will hear about today.
    But on the issue of fraud and abuse--and I know that 
Senator Collins is very concerned about this and I am, too. But 
on behalf of many people on the Gulf Coast, I have to state for 
the record that some people are being accused of fraud because 
they could not provide the title to their home or insurance 
documents.
    In floods and in earthquakes, documents are lost. Some 
people are being accused of fraud because they could not 
provide free and clear title to their home. It has been in 
generations for years. They simply do not have a clear title 
after several generations.
    There are some accused of receiving duplicate payments just 
because there is a mixup or omission of names like junior 
instead of senior or senior instead of junior or boulevard, 
drive, or highway as opposed to what it is supposed to be, or 
other data entry errors.
    So I know that fraud is a serious issue. I join Senator 
Jeff Sessions and others in clamping down, raising the fines, 
increasing the penalties for people that would try to game the 
system. It is particularly horrible, I think, for people to try 
to game a system in the middle of a disaster. I mean, really, 
their penalties should significantly be higher in that regard 
and they are. But we have to be careful calling some of these 
mis-classifications fraud when they really are not in my 
definition of fraud.
    And finally, when we go to collect this money back, 
particularly, Senator Collins, I just want to say that I hope 
that the money we put into collecting these funds back are 
cost-effective, because some of these payments were $1,000 or 
$2,000 and there are hundreds of thousands of people that we 
may have to track down. I know letters went out this week for 
5,500. But let us just be careful that when we seek to get the 
money back, it is a good expenditure of taxpayer dollars and 
not just throwing good money after bad.
    I am going to submit the rest to the record. I thank the 
Chairman and Ranking Member very much.
    Chairman Lieberman. Thanks, Senator Landrieu, both for 
coming off the floor while you are managing the Small Business 
bill, but also for your leadership of the Subcommittee, and we 
will continue to try to carry forward with your assistance. 
Thank you.
    Let us go to the witnesses. Again, I thank you for being 
here, all three of you, and we will begin with the Hon. Craig 
Fugate, Administrator of the Federal Emergency Management 
Agency at the U.S. Department of Homeland Security. Good 
afternoon.

 TESTIMONY OF HON. W. CRAIG FUGATE,\1\ ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fugate. Thank you, Mr. Chairman, Ranking Member 
Collins, and Senator Landrieu. I am going to try to go through 
my oral statement here and give more time for questions because 
I think this is really a better setting for the questions that 
you have in response, but I just want to give a summary.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fugate appears in the Appendix on 
page 49.
---------------------------------------------------------------------------
    We have been looking at this since I have been at FEMA, 
from the standpoint of planning and what do we do in a 
catastrophic disaster response. As you pointed out, we respond 
to a lot of disasters. We implement the Stafford Act to provide 
assistance, but that is not the same thing as when it is a 
response that requires a coordinated Federal agency where we 
actually have a lot of different resources that have to go very 
quickly to an area where we may not have a lot of information.
    And so looking at the backdrop of what has happened in 
Japan, and again, I cannot even imagine what my counterparts 
are doing, how they are standing up to this because, again, 
this is what we are in the business for. It is the most 
challenging thing you can deal with. So not only the losses, 
but our counterparts, knowing what they are going through now 
and the challenges they are facing, and trying to step back 
from that and go, ``What if it happened here and what would we 
do?'' And so, the thrust of my comments will be from that 
approach.
    As you know, the lead for our international response is the 
U.S. Agency for International Development (USAID). We are in a 
support role. Two of the teams that have gone to Japan to 
assist in search and rescue are the Urban Search and Rescue 
Teams that, again, are authorized as part of FEMA. There are 28 
teams, two of which are dual supported by both us and USAID, 
that are designated for the international response. These are 
the teams that have been to Haiti, Christchurch, and now are in 
Japan.
    We also stand by to assist the USAID, but Japan is a very 
industrialized country with many resources, so many of the 
things that we could offer have not been needed, although we 
stay in support of that. But the events there remind us that 
disasters, as you point out, do not always give us warning, do 
not always follow a season, and often do not happen where we 
have expected to have the worst impacts.
    So for that reason, a term we use at FEMA is, we cannot 
plan for easy. We have to plan for real. We cannot look at what 
we are merely capable of. We have to look at what the impacts 
could be to our communities and then determine how we meet 
those needs and change those outcomes.
    We put a lot of emphasis on the first 72 hours. We think 
this is a key area. We saw this in Hurricane Katrina. We have 
seen it in other disasters. If aid is not reaching the people 
that need it, if we are not safe and secure, if we are not able 
to do the search and rescue, if we cannot get the commodities 
there quickly enough, it becomes extremely difficult to change 
the outcome for those survivors.
    And so, from this you actually changed some of the 
provisions of the Stafford Act when you amended the Homeland 
Security Act with the Post-Katrina Emergency Management Reform 
Act that very clearly stated it was the intent of Congress that 
we would not merely operate in a pool system waiting for a 
request for help or waiting for the situation to develop; that 
FEMA and the Federal family could begin mobilizing and moving 
resources when we determine that something has happened or 
think it is about to happen, even prior to a formal request 
from a governor.
    We have used that provision numerous times since I have 
been at FEMA from the American Samoa tsunami to the flooding in 
Tennessee to, most recently, the tsunami warnings that were 
issued for Hawaii and the West Coast, in moving and pre-
positioning supplies as you have directed us to do in these 
situations.
    Chairman Lieberman. Just talk a little bit more about that 
because I think it will be interesting to people who are 
listening or watching on TV.
    Mr. Fugate. Well, previously, and this is one of the 
findings and concerns you raised during Hurricane Katrina, it 
was not always clear if FEMA could begin moving resources, 
particularly in tasking our Federal family in moving supplies 
such as food, generators, cots, and blankets, prior to a 
request from a governor.
    And in looking at that, you clarified that under the 
Stafford Act, at the direction of the President, FEMA could 
activate and use the DRF to begin sending missions to our 
various Federal agencies as well as deploying resources.
    Chairman Lieberman. Before anything happened.
    Mr. Fugate. Before anything happened. So when the tsunami 
warning centers in Hawaii and in Alaska began issuing tsunami 
warnings----
    Chairman Lieberman. Last weekend.
    Mr. Fugate. Last weekend, last Friday. Actually, I got my 
call about two o'clock in the morning. And this event occurred 
a little after midnight our time. Our Region 9 office, which 
covers the Pacific, was already stood up. We made a decision 
that we would stand up fully FEMA's support to the West Coast 
and to the islands and territories. We began moving supplies 
out of our logistics centers, which you have also authorized 
and provided additional funding so we have more supplies on 
hand.
    Chairman Lieberman. So you got the logistics centers 
disbursed around the country?
    Mr. Fugate. Yes, sir. They are strategically located around 
the country so that we are closer to the areas that we need 
assistance. We have a facility at Moffett Field in California, 
and we began the process of getting supplies loaded up.
    Chairman Lieberman. What kinds of supplies?
    Mr. Fugate. In this case, we thought the primary event 
would be destruction along the coast, people being displaced, 
people possibly being in shelters. And so we have a 
distribution center in Guam, a distribution center in Hawaii, 
and then the distribution center we activated on the West Coast 
to begin moving shelf-stable food.
    But also one of the things that came out of the Commission 
on Children and Disasters, we know if we just send the shelf-
stable meals but we do not send infant formula or baby food, 
that it is not addressing the need of children. So we have 
actually built that into our capability now and began moving 
supplies closer to the California coast where historically they 
have mapped their greatest risk from tsunamis, just like we do 
for hurricanes and map the coastal areas.
    Along the West Coast, they have actually mapped those areas 
at greatest risk for tsunamis, so we know where the population 
areas would be and what relative risk we could have. What we 
did not know was how big the wave would be. But given the 
magnitude of the earthquake, the size of it was one that 
suggested that you could see as much as a two-meter, or almost 
six-foot tsunami.
    And again, this is not like a wave breaking on a beach. As 
you saw the videos in Japan, you get that idea of a six-foot 
wall of water that is literally rushing in and flowing in and 
not going out and how devastating that could be. We also had 
our folks in Hawaii that went into the Governor's emergency 
operations center in Hawaii, as he was activating and 
evacuating his coast, and had our supplies ready to go there.
    So this process really comes back to, in the critical 
moments when we think that there may be an event--we had this 
triggering event. We knew a major earthquake had occurred, so 
we knew the tsunami risk was there. We had the forecast, but we 
did not know what the impact was going to be. We began moving 
these supplies based upon what we projected, what we call our 
maximum of maximum--what is the worst case impact we would see 
along our coast--and began moving for that.
    Again, it is a process that says that we have to understand 
and be in close contact with our warning centers, we have to be 
in close contact with our State partners, we have to be 
communicating across the Federal family, and we are doing this 
as a team. This just is not FEMA doing stuff. We are talking to 
Admiral James Winnefeld at U.S. Northern Command (NORTHCOM) in 
case we are going to need more resources there. We are talking 
to our State counterparts, anything they are concerned about, 
anything they need to adjust.
    And so, this process really comes back to, I think, the 
heart of what you tried to get to in the Post-Katrina Reform 
Act, is FEMA had to be more agile, be able to build a better 
team, recognizing there is a lot more capacity and capabilities 
out there than just what we bring, but we have to move much 
faster in these events.
    But as Senator Collins points out, we also have to declare, 
when are we stable and when do we need to engage the safeties 
to make sure we are not just spending money or doing things 
that are no longer necessary. So we define outcomes that we 
want to achieve in this initial response such as life safety 
and life sustaining activities.
    I think this goes back to one of the heart of the issues. 
When we cannot do that, we oftentimes defaulted back to the 
monetary assistance programs because we could not get enough 
supplies in to meet the basic needs, and found ourselves with 
not many options.
    So part of this is really working in partnership with also 
the private sector because this is the other thing we never 
really did. We always came up with what I call a government-
centered response to disasters and we never realized that 
before that disaster happened, in every community, there were 
grocery stores, hardware stores, gas stations, pharmacies, and 
we would oftentimes plan our response irregardless of what they 
were doing.
    We now have representatives of the private sector actually 
part of the FEMA team in our Response Center here in Washington 
helping us coordinate with them so that we do not compete with 
the private sector. We go where they are not, where they have 
the difficulties or they have destruction so that we can focus 
our response on those areas of heaviest devastation, but also 
in those unique populations, as you pointed out, Mr. Chairman, 
and I know that Senator Collins has talked about this before.
    We talk about this as it is one of our responsibilities, 
but I want to make sure people understand why we tell people to 
be prepared. There are going to be heavily-impacted areas that 
should not have to compete with those of us who could have been 
prepared and should have been ready. They should not get in 
line behind us. Those people that do not have the resources, 
that do not have the ability to do these things should not get 
in line behind us because we did not get ready. This is a 
shared responsibility.
    In these types of catastrophic disasters, government needs 
to focus on the safety and security, the search and rescue, and 
the most vulnerable populations, working with the rest of the 
team including our volunteer organizations and our businesses. 
But it is important that the public recognizes the ability that 
they can prepare so that those first critical days, they are 
not competing with the most vulnerable, heaviest-impacted 
populations, is key to our success.
    And so, as we talk about, are we prepared for a 
catastrophic disaster, we have made, I think, significant 
improvements with the tools we have. We have much work to be 
done. And as the IG has pointed out, there are many of what we 
would look at inside the procedural controls and processes that 
still need strengthening to ensure that not only can we be 
rapid and fast, like I say, we want to be fast, we want speed. 
We do not want haste where we have waste and abuse to the 
system. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Administrator Fugate. That is a 
very good beginning. We look forward to the question and answer 
period.
    Richard Skinner, thanks so much for returning to Capitol 
Hill once more. It is your report of last September of FEMA's 
Preparedness for the Next Catastrophic Disaster, An Update, 
that led us to plan this hearing a long time ago. It comes, 
obviously, in the immediate context of the tragedy in Japan, so 
it is just inevitable that we will be looking at the report 
based on what is happening there now. But it is a great piece 
of work, typical of the high standards that you reached 
throughout your career in public service, and we welcome your 
testimony on the report now.

   TESTIMONY OF HON. RICHARD L. SKINNER,\1\ FORMER INSPECTOR 
      GENERAL OF THE U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Skinner. Thank you, Mr. Chairman and Ranking Member 
Collins. It is a pleasure to be here again this afternoon. I do 
not really feel like I have retired yet, as I have been 
spending a considerable amount of time actually preparing for 
this hearing. But it is my pleasure and honor to be here. I 
cannot agree with you more. The tragic events that are 
unfolding today in Japan are a stark reminder of how important 
catastrophic preparedness is. It can and will happen here. It 
is just a matter of when.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Skinner appears in the Appendix 
on page 66.
---------------------------------------------------------------------------
    If you asked me if we, as a Nation, are better prepared 
than we were 20 years ago, 10 years ago, or even 5 years ago, 
the answer to that is yes, of course we are. We have made 
tremendous strides, particularly, Senator Collins, like you 
pointed out, over the last 4 years since Hurricane Katrina. But 
if you ask, are we as prepared as we can be or should be, then 
the answer to that is no, we are not.
    While FEMA has made notable progress to improve its 
preparedness capabilities over the years, it is doing so, at 
least in my opinion, at a snail's pace. After 32 years in 
existence and with the many lessons learned from past disasters 
such as Hurricane Hugo back in the late 1980s, and Hurricane 
Andrew in the early 1990s, and, of course, Hurricane Katrina 
and the Northridge earthquake, and the September 11, 2001, 
attacks, we as a Nation should be much better prepared than we 
are today.
    There does not appear to be, in my opinion, a sense of 
urgency within FEMA to turn words and plans into action. FEMA 
is an agency that always seems, in my opinion, to be an agency 
that is always in a constant state of flux, at least during the 
20 years that I have been working with them.
    Many of the concerns that the Office of the Inspector 
General (OIG), GAO, and FEMA itself identified after Hurricane 
Andrew in 1992, nearly 20 years ago, are the same concerns that 
the OIG identified in its September 2010 update of FEMA's 
catastrophic disaster preparedness capabilities.
    Over the years, FEMA has created multiple task forces, 
working groups, panels, and councils to develop remedial action 
plans to address these issues. They produced libraries full of 
lessons learned, draft plans, draft guidelines, and draft 
documents, many of which were shelved or took a back seat to 
the urgency of its mission demands; that is, to respond to the 
latest disaster. Consequently, momentum towards finalization 
and the implementation of key initiatives is either slowed or 
lost altogether.
    The four issues that I will talk about today that concern 
me the most are one, the failure of FEMA to build a strong 
management support infrastructure to sustain its disaster 
operations. This includes information technology development 
and integration, financial management, acquisition management, 
grants management, and human resource management.
    These functions are absolutely critical to the success of 
FEMA's programs and operations. Yet, whenever there is a major 
disaster or whenever FEMA is required to reduce its budget, 
these are the first activities to be cut, as evidenced by the 
President's 2012 budget to Congress and the many budget cuts 
imposed by Congress itself over the years.
    This is short-sighted and in the long term will increase 
the costs of disaster operations and disaster programs. It will 
also increase FEMA's vulnerabilities to fraud, waste, and 
abuse, and will adversely affect the quality of services to 
individuals and communities affected by disasters.
    In January of this year, the DHS OIG reported--
incidentally, I was still the IG at that time--that FEMA's 
existing IT systems were not integrated, do not meet user needs 
and are cumbersome to operate, and do not provide the IT 
capabilities needed by users to carry out disaster response and 
recovery operations, in a timely, efficient, and effective 
manner.
    Furthermore, FEMA does not even have a complete documented 
inventory of its system to support disasters, nor does it have 
a comprehensive IT strategic plan with clearly defined goals 
for its components. Program and field offices, we found, are 
continuing to develop IT systems independently of the office of 
the Chief Information Officer (CIO) and have been slow to adopt 
FEMA's standard IT development approach.
    Without modern integrated systems, FEMA is hard-pressed to 
perform at its best, as evidenced by the fraud, waste, and 
abuse that has plagued the agency since its inception. It 
cannot prepare timely and reliable financial reports from which 
to make informed financial management decisions.
    It cannot readily share critical information within its own 
ranks, or with its Federal partners at the Federal, State, and 
local levels. It cannot track its disaster work force, the 
status of its mission assignments, or work being performed by 
its contractors and grantees, at least not with any reasonable 
degree of reliability.
    Until these issues are addressed, FEMA's programs and 
taxpayer dollars will continue to be vulnerable to fraud, 
wasteful spending, and poor performance, similar to the 
wasteful spending for unneeded travel trailers after Hurricane 
Katrina or the millions paid to ineligible disaster assistance 
applicants, or the millions paid to unscrupulous contractors.
    Granted, FEMA recognizes and is attempting to remedy many 
of these problems and weaknesses, and has actually made some 
headway, as you can see and have heard from the Administrator 
today. However, does FEMA have the resolve and wherewithal to 
sustain those efforts?
    The ability of FEMA to do so is fragile, not only because 
of the early stage of development that these initiatives are 
in, but also because of the Nation's economic environment and 
the constant disruptions caused by the inordinate number of 
disasters that FEMA must service each year.
    Unless there is a sustained commitment and continuing 
investment of resources, there is a good chance, if history is 
to serve as an indicator, that we will be talking about these 
same problems 5 or 10 years from now.
    The second issue that concerns me is the lack of 
performance standards and metrics to measure the level of 
disaster preparedness at all levels of government, Federal, 
State, and local. In July 1993, 18 years ago, GAO reported that 
FEMA had neither established performance standards nor 
developed a program for evaluating Federal, State, and local 
preparedness for catastrophic disaster response.
    Until that is accomplished, according to GAO, FEMA will not 
be able to judge the Nation's readiness, nor will it be able to 
hold itself or its State and local partners accountable. In 
1998, 13 years ago, FEMA claimed to be in the process of 
developing a methodology for assessing hazard risk and disaster 
response capabilities. Yet, to this day, FEMA has not finalized 
its methodology, nor has it finalized the systems and 
performance metrics and processes necessary to track and 
measure emergency management capabilities and performance.
    State and local governments have received billions of 
dollars over the past 8 years and are estimated to receive 
billions more over the years to come. However, without a bona 
fide performance measurement system, it is impossible to 
determine whether these annual investments are actually 
improving our Nation's disaster preparedness posture.
    Furthermore, without clear, meaningful performance 
standards, FEMA lacks the tools necessary to make informed 
funding decisions. In today's economic climate, it is critical 
that FEMA concentrate its limited resources on those hazards 
that pose the greatest risk to the country.
    The third issue that concerns me is the lack of 
transparency and accountability in the use of disaster relief 
funds and to prevent fraud, waste, and abuse of those funds. 
Literally hundreds and hundreds of OIG audits and 
investigations over the years have demonstrated that FEMA 
programs are extremely vulnerable to fraud, waste, and abuse.
    Yet, FEMA still has not developed a robust program to 
curtail fraud, waste, and abuse within its programs. The extent 
of the fraud and abuse that the OIG uncovers every year, year 
after year for the past 20 years, at least since I have been 
associated with FEMA, is unacceptable and it needs to be 
addressed and it needs to be addressed aggressively.
    Unfortunately, there is a long-standing mindset within the 
FEMA rank and file that fraud prevention is the exclusive 
responsibility of the OIG. Many believe that FEMA's 
responsibility is simply to dole out funds to individuals and 
communities affected by a disaster, and it is the OIG's 
responsibility to catch those who have received those funds 
through fraudulent means.
    This flawed mindset is costing the American taxpayer 
millions of dollars each and every year. Fraud prevention is a 
shared responsibility. In 2007, in response to an OIG proposal, 
FEMA created a Fraud Prevention Unit to address the complaints 
of widespread fraudulent activity after four disasters struck 
Florida in 2004.
    Since then, the unit has been renamed and placed in FEMA's 
Office of the Chief Security Officer. Although the concept 
behind the fraud unit is sound, it is under-staffed, under-
funded, and lacks the latest in fraud prevention technology to 
be effective. Furthermore, organizationally, it is buried in 
the bowels of the agency with very little, if any, visibility 
within the rank and file.
    Consequently, its utility has not been fully utilized. FEMA 
needs to increase the visibility of the fraud unit, expand its 
scope of responsibility to include all disaster relief programs 
nationwide, and mandate fraud prevention training for all of 
its employees. This should help strike a balance between 
providing assistance and ensuring fiscal responsibility.
    A good model that FEMA may want to emulate is the one 
developed by the Recovery, Accountability, and Transparency 
Board, which was created by Congress in 2009 to promote 
transparency and accountability and to prevent fraud, waste, 
and abuse for nearly $800 billion in economic stimulus recovery 
programs. Within 9 months of its creation, the board developed 
and put into place government-wide systems to provide 
transparency and accountability and to identify and prevent 
fraud, waste, and abuse.
    As a result of that initiative, fraud, waste, and abuse of 
economic stimulus funds have been kept to an absolute minimum. 
There is no reason why a small agency such as FEMA cannot do 
the same. We as taxpayers deserve to know that our tax dollars 
are not being wasted or spent on fraudulent activities. To that 
end, I believe that FEMA should review and incorporate many of 
the precedent-setting measures used by the Recovery Board in 
order to ensure proper stewardship of taxpayer dollars.
    Finally, I am concerned about the diminished emphasis being 
placed on community outreach and awareness to improve hazard 
mitigation strategies and projects and outcomes. Mitigation is 
considered the cornerstone of emergency management. It attempts 
to prevent hazards from developing into disasters or to reduce 
the effects of disasters when they do occur.
    In the late 1990s, FEMA launched an aggressive community 
outreach and awareness campaign to educate the public about the 
importance of mitigation and to create a network of mitigation 
partners, both in the public and private sectors, to 
collaborate on the development and implementation of risk-
based, all hazards mitigation strategies and projects.
    In fact, this campaign was the impetus for the Disaster 
Mitigation Act of 2000. Unfortunately, this initiative lost its 
momentum due to the change in administrations and the tragic 
events of September 11, 2001. America's attention turned to 
fighting and preventing terrorism and mitigation faded into the 
background as an emergency management priority. As a result, 
FEMA is now struggling to coordinate the mitigation efforts of 
its stakeholders and develop a national hazard mitigation 
strategy.
    To lessen the impact of a catastrophic disaster, mitigation 
needs to be elevated again as a top emergency management 
priority. And FEMA needs to relaunch its campaign to educate 
the public and its mitigation partners about the importance of 
developing and implementing mitigation strategies and programs.
    In conclusion, notwithstanding the many initiatives 
underway, many of them very good, I remain concerned about 
FEMA's capability and resolve to sustain an effective and 
efficient catastrophic disaster preparedness strategy and 
program.
    FEMA's increased involvement in routine disasters, coupled 
with the recent economic downturn and the impact that it is 
having on government budgets at all levels, could easily derail 
the many initiatives currently underway, which is unfortunate. 
In this day and age, it is more important than ever that FEMA 
be prepared to assist State and local governments.
    Mr. Chairman, Ranking Member Collins, that concludes my 
statement. I will be happy to answer any questions you may 
have.
    Chairman Lieberman. Thanks, Mr. Skinner. That was direct, 
as we expect from you. Maybe I would call it the tough love 
that we expect from a great inspector general. When we get to 
the questions, I will ask Mr. Fugate if he wants to respond.
    Our final witness is William O. Jenkins, Jr., Director of 
Homeland Security and Justice Issues at the U.S. Government 
Accountability Office, known and loved as GAO.

  TESTIMONY OF WILLIAM O. JENKINS, JR.,\1\ DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Jenkins. Chairman Lieberman and Ranking Member Collins, 
I appreciate the opportunity to be here today to discuss FEMA's 
efforts to measure and assess national capabilities to respond 
to a catastrophic disaster. So some of my comments will echo 
those of Mr. Skinner.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jenkins appears in the Appendix 
on page 89.
---------------------------------------------------------------------------
    The horrifying and heart-wrenching photos and videos from 
Japan vividly illustrate one of the key characteristics of a 
catastrophic disaster. The response capabilities of the 
affected areas are almost immediately overwhelmed, and 
substantial outside assistance is quickly needed. Effective 
response requires the resources and coordinated action of a 
wide array of government and non-governmental entities. The 
Hurricane Katrina response drew on resources from almost every 
State in the lower 48.
    Basically preparing for disasters requires identifying what 
needs to be done, by whom, and how well it should be done. More 
specifically, this includes identifying: One, the nature of the 
risks faced in specific geographic areas; two, the types and 
scale of the potential disaster consequences arising from these 
risks; three, the desired outcomes in addressing these 
consequences; four, the capabilities needed to achieve the 
desired outcomes; five, who should fund, develop, and maintain 
specific needed capabilities; and six, metrics for assessing 
the extent to which needed capabilities are available for 
deployment.
    Detailed operational plans are the blueprint for who should 
do what and how the activities of the many players will be 
managed and coordinated. Training to perform assigned roles and 
capabilities should be coupled with exercises to test and 
assess the operational plan and identify areas of strength and 
gaps that need to be addressed.
    The Federal Government has provided more than $34 billion 
to States, localities, and some non-governmental organizations 
to enhance their capabilities to protect, prevent, respond, and 
recover from major disasters. The Post-Katrina Emergency 
Management Reform Act gave FEMA responsibility for leading the 
Nation in developing a national preparedness system, developing 
measures of desire capabilities, and assessing those 
capabilities and the resources needed to achieve them.
    This is a complex and daunting task. As Mr. Fugate notes in 
many public presentations, it is a task that FEMA may lead, but 
whose success requires the effective partnership of numerous 
government and non-governmental entities, as well as the 
American public.
    In September 2010, the Local, State, Tribal, and Federal 
Task Force on Preparedness reported there was no agreed-upon 
method of assessing disaster preparedness or the extent to 
which Federal grants have enhanced disaster capabilities and 
preparedness. They suggested a 3-year time line with associated 
annual tasks for developing capability metrics.
    FEMA has initiated a number of efforts over the years to 
develop a method of defining and measuring preparedness. FEMA 
has characterized most of the assessment methodologies it has 
developed as guidance or tools that non-Federal entities can 
choose to use or not. One result of this approach is that 
available data are largely self-reported, difficult to 
validate, and not necessarily comparable across reporting 
jurisdictions and entities, thus making it difficult to get a 
picture of national preparedness.
    Each of the efforts to date has partially advanced the 
ability to define and measure disaster preparedness. However, 
they have not been integrated into a comprehensive approach 
with metrics that enables FEMA and its partners to assess 
national preparedness as envisioned by the Post-Katrina Act.
    Until it does have an integrated approach, FEMA will not 
have a basis to operationalize and implement an assessment of 
disaster preparedness across the Nation, nor will it be able to 
effectively target grant resources to the areas of greatest 
need and potential benefit. It is essential that there be a 
useful, reliable way of comparing capability levels across 
entities and jurisdictions with catastrophic response roles and 
responsibilities.
    FEMA has embarked on a new initiative called Whole of 
Community which incorporates 13 core response capabilities with 
an emphasis on stabilizing a catastrophic disaster's effect in 
the first 72 hours. This approach will be tested in the 
National Level Exercise this year using a major earthquake on 
the New Madrid fault. This new effort is in its early stages, 
and it is too early to assess its success.
    Whatever approach is eventually used, it is essential that 
there be a defined end state we want to achieve; a reliable 
means of assessing where we are in our ability to achieve that 
end state; that roles and responsibilities are clear; and that 
we rigorously test and periodically re-evaluate the assumptions 
on which disaster planning is based.
    According to news accounts, Japan experienced a 
significantly bigger earthquake and tsunami than the one for 
which it had planned and prepared for the geographic area hit 
by the disaster. It has faced the cumulative effects of three 
quickly succeeding disasters, any one of which would have been 
considered a major disaster.
    All disasters represent opportunities for learning and 
assessment, and this one is no different. A careful assessment 
of the Japanese experience can be useful to our own future 
disaster planning and preparation. That concludes my statement, 
Mr. Chairman. I would be pleased to respond to questions you or 
the Ranking Member may have.
    Chairman Lieberman. Thanks very much, Mr. Jenkins. It was a 
very helpful statement. We will do 7-minute rounds at the 
beginning.
    Administrator Fugate, I want to give you a chance to at 
least begin a response to the testimonies of Mr. Skinner and 
Mr. Jenkins. I want to offer you also the opportunity to file a 
written response for the Committee's record because we want to 
get to other questions. But I thought you should have a chance, 
particularly on the various elements of management, to respond 
to what Mr. Skinner said.
    Mr. Fugate. Well, thank you, Mr. Chairman. Much of what is 
in the IG's report we are not disagreeing with, but I think, 
again, that is not to say that we are not taking steps, we are. 
And to say it is not a priority, I would beg to differ. The 
results may not be there yet in the IG's report. But I will 
give you an example, Mr. Chairman, and again, we will respond 
in writing.
    But I will give you a sense of when I got to FEMA, the 
Disaster Relief Fund was basically a piggy bank that was used, 
oftentimes, in ways that it was not intented for. We found 
ourselves funding positions that were not directly tied to 
disasters. It was oftentimes used as, if something was not 
going right, we would go look at the DRF when it was not a 
disaster.
    One of our first steps was to identify all the positions 
that were no longer doing primary disaster work, that were 
still being funded, particularly from the Hurricane Katrina 
era, that had become something that you had already funded in 
positions. We worked with the Office of Management and Budget 
(OMB) and staff to eliminate all the positions that were being 
funded out of DRF and move them into our budgets. We had a 2-
year transition period, and we were successful in doing that.
    The other thing we looked at was the cost of administering 
disasters. In many cases, we were setting up and mobilizing 
large numbers of folks to administer disasters, and we asked 
the question, Can we do this without necessarily setting up a 
facility? So we introduced and had built upon a concept that 
was already there, what we call a virtual joint field office. 
Instead of going out and setting up an office, can we work this 
from the region and avoid that cost? It does not slow down our 
response and recovery, but it does reduce the overall cost of 
how we administer the disaster itself.
    For fraud and waste, we have been working to make sure that 
we have the acquisition staff we need. A large percentage of 
our acquisition staff are contractors doing those conversions 
over and getting them certified; requiring that not only those 
people that, by law, are required to have ethics training do, 
but require all FEMA employees to take ethics training 
annually. As was pointed out, this was a huge issue in the 
response in Hurricane Katrina, not having a strong acquisition 
force and people that can go out and utilize contracts that 
were already bid appropriately that we could use in a disaster. 
And if we do have to do acquisition, having the acquisition 
specialist to go in the field to support the joint field 
office. These are things we had not done before that we are 
implementing.
    Again, I think many of these things we take to heart. Our 
implementation of it is not as swift as you would like or as 
the IG would like, but I think these are areas we are moving 
forward.
    A big part of this was getting the staff hired, getting 
them trained, and as the IG has pointed out, both in his 
reports and his testimony, is maintaining and getting staff 
trained and in those positions so that as we deal with 
disasters, we are not always pulling from staff that are 
responsible for the day-to-day management.
    And again, as part of that was looking at our management 
structure and putting a higher priority on these backbone 
systems that are required to do the day-to-day business, but 
also support disaster response.
    So while I will not disagree with the findings of the IG, I 
would state that it is not a lack of effort, but those results 
may not be necessarily showing up yet as we continue to work to 
build that capability.
    Chairman Lieberman. We will continue to monitor, obviously, 
and after some period of time come back and do another 
oversight hearing, hopefully not in the shadow of a 
catastrophic disaster somewhere in the world.
    Let me go to some questions that come off of what is 
happening in Japan now. To state the obvious to you, FEMA is 
not responsible for the safety of the operation of nuclear 
power plants. That is the purview of the Nuclear Regulatory 
Commission (NRC). FEMA has responsibility, along with other 
entities, for being prepared to respond to an accident at a 
nuclear power plant, the effect of weather, earthquakes, or a 
terrorist attack on the nuclear power plant.
    I am interested, since we have all, unfortunately, learned 
a lot about types of nuclear reactors, whether the plans for a 
response that you have are affected by the particular designs 
of nuclear power plants, or whether that gets to a level of 
detail and nuance that is hard for you to get to. In other 
words, whether you evaluate the resiliency of a particular 
nuclear power plant as you plan a preparedness strategy for an 
event at that plant.
    Mr. Fugate. Mr. Chairman, this goes back to the findings 
from Three Mile Island that required, at that time, the new 
FEMA that was created in the reorganization that President 
Carter signed; that under the Nuclear Regulatory Commission's 
regulations, FEMA was responsible for administering what is 
called the Radiological Emergency Preparedness Program, which 
was to work with local and State governments.
    In this particular program, the determination as to what 
level we prepared to is based upon those regulations that were 
established by the Nuclear Regulatory Commission based upon the 
findings after Three Mile Island. They are not specific to the 
reactor. They are specific to the regulations, and the 
regulations require that planning for individuals is based upon 
a 10-mile planning zone around the facilities with an 
additional 50-mile emergency planning zone for what is 
determined to be ingestion or the possibility of food pathway 
risk.
    These plans and the exercises that are done and required to 
be certified for those plants are conducted on a recurring 
basis against the standards in the regulations. So it would be 
something where the Nuclear Regulatory Commission would make 
determinations as to modifications to the distances or actions 
taken.
    Our job is to make sure that we work as a team with local 
and State government, that they can execute those protective 
measures, which may include evacuation, decontamination of 
vehicles traveling through the area, sheltering, the warning 
systems, and other protective actions that local and State 
officials would take in the event that an accident occurred.
    Chairman Lieberman. So let me ask you the baseline 
question, maybe the circumstance is answered, but if a 
combination of events like the ones that have occurred in Japan 
occurred here in the United States, would FEMA be prepared to 
respond?
    Mr. Fugate. Given what we are seeing there, it would go, I 
think, far beyond what we currently have in our Radiological 
Emergency Preparedness Program. But fortunately, we built a lot 
of capability within the National Guard, within the Department 
of Defense, but also within the local hazardous material teams 
that have received these grant fundings, particularly when we 
look at the threat of improvised nuclear devices or 
radiological dispersal devices.
    So with the civil support teams that have been built within 
the National Guard or the Chemical, Biological, Radiological, 
Nuclear, and High Yield Explosives (CBRNE) capabilities that 
NORTHCOM has to respond in support of these teams, we have, I 
think, for this type of event--again, we would not speak to the 
reactor. That would be really the lead of the NRC. But if there 
were consequences off sites, the ability to monitor that is a 
team effort, the ability to do the decontamination and support 
the evacuations, I think there is a lot more capability that 
even goes beyond what we have in our commercial reactor safety 
programs that could be brought to bear, mainly because of the 
additional preparedness we do for improvised devices or 
dispersal devices.
    Chairman Lieberman. Well, that is an important answer, and 
I hope people who are listening find it reassuring. One is, we 
live in a world with a lot of risks. But the capabilities to 
respond to a terrorist attack involving a radiological device 
or, at worst, a nuclear weapon here in the United States, those 
capabilities also, obviously, can be brought to bear in the 
case of an accident or a natural disaster such as the one we 
are watching in Japan now, which already is, but may have 
significant radiological consequences.
    I think it is very important to state that since September 
11, 2001, and, of course, intensely since Hurricane Katrina, we 
have developed extra capacities that FEMA can bring to bear, 
particularly within the Defense Department on, as you say, the 
response teams and the National Guards, which are right there 
and will probably be the first responders--apart from local law 
enforcement--on the site.
    And second, very specialized skills in specialized units 
that are stood up at the national level within the Defense 
Department, to come in and deal with the radiological 
consequences of such an event. I guess my question is, have I 
got it right?
    Mr. Fugate. Yes, sir. It is what we call a multi-layer, 
all-hazard approach that many of these teams that were 
originally designed for commercial nuclear power plants 
actually give locals the capability to respond to other 
threats. And conversely, the funds and the building of the 
teams to respond to the threat of a dispersal device gives us 
more capability to respond to any event that could occur as an 
accident.
    So in the area of all-hazard, this is one of the things we 
really try to emphasize, when we build these capabilities, 
oftentimes we are building them against known threats or in the 
case of terrorism. But the ability to use them for those things 
that you did not expect, or were greater than what your plans 
were for, really come back to the heart of what we are trying 
to get to, is planning for these likely maximum events and 
realize that it really takes the ability to leverage all of our 
resources, not necessarily as originally planned, but how they 
could be utilized as part of the team if we saw this type of 
event.
    Chairman Lieberman. And again, just finally--and then I 
will yield, I am over my time--under Northern Command, which is 
a command of our military which has responsibility now for 
Homeland Security, we have these two units, 4,500 people in 
each one, one active duty, one reserve, that are specially 
trained to respond to events of this kind and to get there as 
quickly as possible, certainly within the 72-hour window that 
you have talked about. Thanks, Administrator. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Administrator, you have pointed out that the Nuclear 
Regulatory Commission would be the lead agency if the United 
States were to experience the kind of accident or level of 
damage at a commercial nuclear reactor that is occurring now in 
Japan. But FEMA, under the national planning scenarios, is 
responsible for the operational planning under a number of 
scenarios, one of which is a major earthquake, another is a 
nuclear attack, and another is essentially a dirty bomb.
    Has FEMA completed the operational planning for those 15 
scenarios that clearly outlines the roles and responsibilities 
of all of your partners? In other words, is it really clear who 
is responsible for what if, God forbid, we had the kind of 
multiple catastrophe that Japan is experiencing right now?
    Mr. Fugate. In looking at the 15 planning scenarios, and I 
think we are collapsing some of this down into what are the 
things that we respond to that are similar and what are the 
unique authorities that are different across those?
    And this comes back to, when we are doing the all-hazard 
planning and looking at the catastrophic, we are actually 
looking at an improvised nuclear device, the earthquake 
scenarios, particularly in California, and the Category 5 
hurricanes, and looking at the possible total number of 
casualties, the impacts, and response to support that, and then 
going back through the authorities of which Federal agencies 
would have different pieces of that.
    One of the things that you will note is that the Nuclear 
Regulatory Commission, as a regulatory agency, is responsible 
for the power plants. But if an event occurs outside of that 
that is not a regulated facility, it is actually the Department 
of Energy that has the lead on the radiological response.
    And so, it is our ability to go through these and look at 
and de-conflict where we have the authorities, make sure they 
are clear, and part of this is through the exercises that we do 
to look at this. We, most recently, conducted exercises looking 
at nuclear power plants and looking at whose authorities are 
there and what we would operate under.
    So as we go through these scenarios, that is what we are 
doing. The status of that, I will go back and submit that in 
writing because each one of those scenarios has various 
components that are being completed or have been completed for 
the planning scenarios.
    Senator Collins. Mr. Skinner and Mr. Jenkins, are the roles 
and responsibilities clear, in your judgment, under the 15 
disaster scenarios that should be operational planning is not 
yet completed for? I mean, I am sort of answering my own 
question because if it is not completed, it is unlikely to be 
clear. But what is your assessment? I will start with you, Mr. 
Skinner.
    Mr. Skinner. First, I would like to say that we have not 
done a study to determine the clarity of the individual roles. 
But during the course of our work, we were able to determine 
that the responsibilities are becoming clearer, and this is a 
direct result, I think, of the confusion that we witnessed 
after Hurricane Katrina. People sat down in the room and 
started more clearly defining who is on first, who has the 
operational responsibilities, and who is in charge.
    So in that regard, after Hurricane Katrina, we feel 
comfortable that the clarity of the roles are becoming clearer. 
But again, a lot of these things are not complete. So we are 
really trying to use a crystal ball to predict how is it going 
to play out in the future.
    But with regards to earthquakes that Administrator Fugate 
referred to, and as well as nuclear detonation and major 
hurricanes, Category 5 hurricanes, as a result of that work, we 
feel that the roles are relatively clear.
    Senator Collins. Mr. Jenkins, do you agree?
    Mr. Jenkins. Yes, I do agree with that. I think there has 
definitely been progress made, but I think one of the issues 
that we are concerned about is, until you get these plans 
completed, one of the things that is important for State, 
local, or other officials that are involved, it is the totality 
of the roles and responsibilities that we have across these 
scenarios, and then what are the capabilities we need to be 
able to carry out those roles and responsibilities effectively.
    So it is really important to know the totality of that so 
you know, this is what I am responsible for, these are the kind 
of capabilities I need to build.
    Senator Collins. Mr. Skinner, you put out a report in 
December that revealed that FEMA had stopped attempting to 
recover improper disaster assistance payments that were made 
after Hurricanes Katrina and Rita, and you identified 
approximately 160,000 applicants that have received improper 
payments totaling more than $643 million.
    Is this in addition to the improper uses of the $2,000 
debit cards that were given out in the wake of Hurricane 
Katrina?
    Mr. Skinner. Yes, it is. Also, it does not include those 
cases of fraudulent activity that we investigated. I would like 
to make clear something that Senator Landrieu made reference 
to, that is, simply because you have filed an incomplete 
application or have unclear data on your application, does not 
automatically put you in a bucket as a fraudulent applicant. It 
puts you in a bucket as a potential ineligible applicant.
    Senator Collins. And there is a difference.
    Mr. Skinner. There is a very big difference.
    Senator Collins. Absolutely.
    Mr. Skinner. And I would like to make that clarification.
    Senator Collins. I am pleased that you did because I was 
going to ask you that very question. I want to ask you a series 
of questions about that, but since my time on this round is 
almost expired, I will wait for the next round.
    Chairman Lieberman. Thanks, Senator Collins.
    Senator Brown, welcome. Thanks for being here.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. I would not miss it. I do not think I have, 
actually, so happy to be here, obviously. I appreciate you 
holding this hearing.
    A report published in a Boston paper indicates that the Bay 
State Nuclear Power Plant is the second highest in the Nation 
for the potential of suffering core damage from an earthquake. 
Are any of you familiar with that report at all?
    Mr. Jenkins. No, I am not.
    Mr. Skinner. No.
    Senator Brown. No?
    Mr. Fugate. Mr. Chairman, Senator, I think I am familiar 
with the--is this the ranking of the power plant?
    Senator Brown. Right.
    Mr. Fugate. Was this the one done by the NRC that went back 
and re-ranked the probability of the events?
    Senator Brown. Yes.
    Mr. Fugate. I have seen that report, sir.
    Senator Brown. So in light of that, they were number two 
apparently. Have there been any efforts by any of you at all to 
reach out and make sure that we are squared away?
    Mr. Fugate. Senator, what is going on inside of the plant 
and the regulatory part of that is the purview of the Nuclear 
Regulatory Commission. But around each one of the licensed 
nuclear power plants, FEMA supports State and local governments 
to do the exercises that they do for certification and 
exercises and drills for those plants.
    The report is from the NRC, but what we do at FEMA and have 
been doing prior to this report is based upon the regulatory 
guidance and requirements to do the exercises and the things we 
exercise against. That is an ongoing program. So I am not sure 
what the NRC, with this report, what, if anything, would change 
from that regarding the plant.
    Senator Brown. So if I wanted to find that out, I would 
have to reach out to them?
    Mr. Fugate. Yes, sir.
    Senator Brown. We will do that.
    Also, let me just backtrack for a second. God forbid 
anything like this happens, so I will just take this particular 
plant. It is near the ocean, very similar situation, apparently 
is No. 2 at risk in the country. How confident are you that if 
something like this happens in the United States, that you will 
have the ability--and I understand, apparently, from some of 
the testimony and what I have read is, apparently you guys are 
in charge in terms of implementing. You are the go-to people 
now. Is that accurate in terms of dictating who does what and 
who is in charge?
    Is it an ongoing plan that is developing?
    Mr. Fugate. In response to a nuclear power plant, inside of 
the facility is regulated by the Nuclear Regulatory Commission. 
Outside of the plant is actually the local and State responders 
with FEMA supporting them. And if you had a scenario that 
resulted in a release, the most important thing to occur would 
be to successfully evacuate people away from that plant.
    Those are the type of things that the exercise plans work 
on. These are the things that local and State officials train 
against. And our role at the Federal Government would be to 
support them with additional resources, if required, in the 
event that an evacuation had to take place.
    But those are the things that I think, from the standpoint 
of your questions--if you would like, Senators, to have our 
staff reach out with the State and give your staff an update on 
what those plans are so you can take a look at that and get a 
better idea what----
    Senator Brown. Yes, that would be great because I am 
concerned about who is in charge. Listening and doing, some of 
the work on it, I have a great concern. It is like the left 
hand--very similar to a Hurricane Katrina situation. There is 
going to be a lot of breakdowns. I know there has been a lot of 
improvement. I want to, obviously, make that well-known.
    But now we are getting to the point where we always seem to 
be reactionary instead of, obviously, keeping ahead of the ball 
game.
    I do not want to take the thunder from Senator Collins's 
comments about the $643 million and the difference between 
fraudulent and ineligible, and I am just going to make a 
statement, which is, I find it amazing that we just give away 
millions and millions of dollars with really no accountability.
    And if, in fact, we have improperly paid somebody, that we 
go after it. We get a collection agency, we go after it, we get 
our money, give them a third, collect whatever we have to do. I 
was in a Medicare/Medicaid hearing the other day, and they were 
talking about $76 billion that were just given out, whether it 
is through ineligible or fraudulent. But the bottom line is, 
there is a breakdown somewhere and being one of the newer 
people here, still over a year away, I am just flabbergasted at 
the amount of just--it is a million here, a million there. We 
are fighting for millions.
    My State could use millions, whether it is Low Income Home 
Energy Assistance Program (LIHEAP) money, Head Start programs, 
or the fishing industry.
    I have to run to another hearing, but I would love to hear, 
like Senator Collins, where is the money, is it coming back, 
and why did they give up? So I do not want to take away from 
that, but I do have time for one or two more questions.
    When you talk about the all-hazard approach, and I think it 
is an extension of what I was just asking, and if you could 
maybe follow up again with my office and how we can do it 
offline. With everything that is happening, and I have been 
following it, what happened in Japan, like everybody else. It 
is just so devastating. I cannot imagine that there is going to 
be one agency in Massachusetts who would just say, ``OK, you go 
here, you go here.''
    So I am really concerned, not only in Massachusetts but 
throughout the country if something like this happens. I am not 
confident yet, and I am hopeful that someone can give me the 
information to make sure that we all know what to do. Is it 
evacuation? Is it command and control? Is it military? I think 
it is a combination of everything. Can you shed any light on my 
thoughts?
    Mr. Fugate. In the time we have, I can start and then I 
would like to have an opportunity, Senator Brown----
    Senator Brown. Well, we can do that, because I do not want 
to take Senator Akaka's time.
    Mr. Fugate. Well, I just want to make this one point.
    Chairman Lieberman. I think you are asking an important 
question so I would urge Administrator Fugate to give you a 
response.
    Mr. Fugate. In many of our disasters, and we always start 
with who is going to be the closest responders no matter how 
big the disaster, it is always the local responders. And in 
some cases, as we saw in this, they can be destroyed in the 
disaster itself. We saw this in Hurricane Katrina, we saw this 
in the tsunami. The next layer is the governor and their team, 
including the un-impacted communities and the National Guard 
responding. And then the next level is the Federal Government.
    I think one of the things that is a little bit different 
that this Committee saw was the fact that previously FEMA would 
have to wait for somebody to call for help before we could 
begin mobilizing the Federal resources, including the 
Department of Defense. This Committee changed the law so that 
no longer do we have to wait until a State is overwhelmed. But 
even if there is the appearance that they may need that help, 
we can start mobilizing resources.
    But one of the key things is it is done as a coordinated 
effort with the local officials, the governor and their team, 
and then the President's team as directed under the Homeland 
Security Act and the Stafford Act to coordinate Federal 
assistance so that governors do not have to go shopping the 
Federal agencies to figure out who is coming or who does what.
    I think this is the one thing this Committee really focused 
on after Hurricane Katrina was, you had to make sure that the 
governor, who is then responsible for coordinating the response 
in their State, has that one place that is going to coordinate 
on behalf of the President, all the Federal resources including 
the Department of Defense, in their disaster.
    Senator Brown. I would love to talk to you about this some 
more, maybe someone from your staff, we can connect.
    Mr. Fugate. Yes.
    Senator Brown. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Brown.
    Administrator, am I not right that once a year, FEMA and 
the NRC, and perhaps local officials, go through a dry run 
about a disaster at every nuclear plant in the country? Is that 
right?
    Mr. Fugate. It is actually a little bit more than that. We 
do a formal, evaluated exercise where we actually grade the 
operator and the local governments and State governments, and 
every 2 years they actually have to be certified and any 
deficiencies or areas requiring correction have to be 
addressed.
    They perform about four drills a year. Those could be 
anything from a decontamination exercise where we are actually 
taking vehicles and how you would wash them down and monitor, 
or the warning systems, or other parts of the plan.
    And generally, they also have practice exercises built into 
that cycle. So rather than just every 2 years you do one 
exercise, there is a series of drills and exercises, and then 
the evaluated exercise is where they are actually graded on 
their ability to perform those functions.
    Again, it is done against those regulatory functions that 
say, you have to warn the population in this amount of time 
from the time the event escalates. You have to be able to 
shelter and evacuate the populations within these time frames. 
You have to be able to do all these things against a population 
at risk. So it is actually based on who lives there, what is 
that population?
    Chairman Lieberman. Right.
    Mr. Fugate. And it is adjusted to that particular community 
and that local and State government response.
    Chairman Lieberman. So in the case the power plant in 
Massachusetts, there is a plan if something should happen?
    Mr. Fugate. I would imagine if you went to the local phone 
books, you could actually find a map. This is generally how we 
do stuff, get the information out so people know if you live 
inside of that zone, that this may be an evacuation zone. You 
will generally find that you have outdoor warning systems, 
sirens, or telephone notification systems that are enhancing 
our emergency alert system tied to that area.
    You will find that the local responders have a lot more 
equipment for radiological monitoring and detection than you 
would normally find. These are kind of the things, again, 
because these are point-specific hazards, that we plan against 
and you exercise against. They are very well-known to the local 
officials and the State officials who do that planning.
    Chairman Lieberman. Thank you. Senator Akaka, welcome.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman and 
Senator Collins. Thank you for holding this hearing. I also 
want to extend my thank you to the witnesses for being here 
today.
    I would like to recognize FEMA, particularly Region 9 
Administrator Nancy Ward, for collaborating extensively with 
Hawaii's civil defense and joint catastrophic planning. She 
does a great job. My home State of Hawaii and the Pacific 
territories face unique challenges, as you know very well, 
because of their remote locations and a limited logistics base 
in Hawaii. There is still much for us to do, and I am glad that 
we are having this hearing.
    Administrator Fugate, as you know, States rely on 
neighboring States to provide critical assistance in the event 
of a disaster. However, Hawaii is over 2,000 miles from the 
mainland, so other States may not be able to provide timely 
support. FEMA has a disaster supply warehouse in west Oahu and 
one in Guam. Should a major disaster strike Hawaii, either 
damaging the warehouse or overwhelming our supplies, what plans 
does FEMA have to quickly resupply Hawaii?
    Mr. Fugate. Well, thank you for that question, Senator, and 
also I have to thank the State of Hawaii and the Hawaiian 
National Guard who helped us respond to American Samoa when the 
tsunami hit there. The challenges, again as we know in the 
Pacific, the distances, require us to both leverage what we 
have in the FEMA warehouses, but also our local coordination 
with Pacific Command (PACOM), and their resources.
    When Nancy Ward, as you pointed out, one of our regional 
administrators, starts to talk with her counterparts there in 
Hawaii or in the territories in the event that we see something 
coming--again, we know the distances, we know we cannot wait--
we are oftentimes starting to look at how we will start to ship 
or fly resources in.
    This is the close coordination that we have, both with our 
ability to charter aircraft, but also work with the Department 
of Defense for those most critical supplies. As you remember in 
American Samoa, one of the key issues the governor had was for 
generators, and he could not wait for them to come by barge 
because he had to get his critical systems back up. So we were 
able to task, initially, DOD and later contractors, to fly 
those generators in there.
    So again, it goes back to the authorities this Committee 
has vested. When we know we have these tremendous distances, we 
oftentimes have to make decisions before we have requests or 
before we have all the information to start moving, 
particularly in the most critical life saving supplies because 
we will not have time to make up.
    So those are the continency plans, again as in Guam and in 
Hawaii. We base those supplies on the time it would take to 
ship supplies, but recognize that if they are impacted, we 
would actually be flying supplies as soon as airfields were 
available.
    Senator Akaka. Yes. I agree that coordination relationship 
with the military really makes a difference. Administrator 
Fugate, as was evident in the recent events, Hawaii and Pacific 
Coast States and territories face the greatest tsunami hazard 
in the United States. The National Oceanic and Atmospheric 
Administration (NOAA) manages Federal tsunami detection and 
warning efforts, and partners with Federal agencies to reduce 
tsunami risks.
    How is FEMA working with NOAA to coordinate tsunami 
preparedness and response plans?
    Mr. Fugate. We work very closely, as they are the subject 
matter experts on the hazard, and in supporting the States and 
territories as they map their innundation zones. One of the 
areas that we help them in their tsunami-ready programs is in 
the warning systems. This is an area that we are currently 
working with the governor of American Samoa who did not have a 
tsunami warning system prior to the last event, particularly 
the outdoor notification systems, which we saw work very 
effectively in Hawaii during this last crisis.
    So we continue to work with NOAA as they give us the 
warnings to activate through our national warning systems, was 
how we originally got those calls out to the States and 
territories that we did have a tsunami warning. And then 
working with the grant programs we provide, for them to build 
and develop those warning systems. This is the other part of, 
again, looking at where we are making progress with these 
homeland security funds, is building warning systems for these 
types of events.
    Fortunately, we had a lot more warning in this one, but as 
we saw with American Samoa, you can very often have the 
earthquake occur and the tsunami occur right after that. So the 
warning piece of this, the mapping, and the understanding of 
those hazards are key so that local officials have the 
information about who and where and how far you need to 
evacuate. Then we need to support them through the Integrated 
Public Alert and Warning System (IPAWS) and the other warning 
tools that we have enhancing the emergency alert system and 
outdoor warning systems so we can warn that population in time.
    Senator Akaka. Administrator Fugate, according to census 
data, nearly 25 million adults in the United States do not 
speak English well. FEMA must communicate effectively during 
disaster response and recovery with a large and diverse 
population of non-English speakers. What steps has FEMA taken 
to make sure that it can do so?
    Mr. Fugate. We continue to look at our populations, and one 
of the concepts that is not new--it is actually, I thought, 
pretty much a reflection of what this Committee was trying to 
drive at. We needed to quit planning for easy and plan for 
real.
    English does not cut it if I am deaf and hard of hearing 
and all I know is American sign language and all you gave me is 
closed caption and that is not my first language. Or if my 
primary language and the language that I was born with is not 
English, and in a crisis, I cannot understand what you are 
trying to tell me to do and I do not get the information I 
need.
    So we work very closely back with our State and local 
partners to look at the languages and the needs and recognize 
that we have to make sure that we are providing information in 
a way that people need it, not what is convenient to us. So we 
have worked to provide more and more of our preparedness 
information in multiple languages.
    We have created, in addition to our Ready.gov Web site, a 
Listo.gov, which is a full site in Spanish, as well as ensuring 
that in the various languages in our States where they have 
identified significant populations, that we provide 
preparedness information in those languages, that we have those 
language skills available to back up our registration centers.
    But most importantly, we understand that American sign 
language is also a language that we have to be able to 
communicate in, and we cannot depend just upon text messaging 
or text crawls to reach that population.
    Senator Akaka. Yes. Well, I thank you very much for the 
work that you are doing, and I wish you well.
    Mr. Fugate. Thank you, sir.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Akaka.
    The reports that I have seen, Administrator Fugate, 
indicate that as a result of the earthquake and tsunami in 
Japan, there are more than 400,000 people who have been forced 
from their homes and they are living in emergency shelters or 
with relatives. Apparently another 24,000 or 25,000 are 
stranded. Obviously these are the nightmarish memories we have 
of Hurricane Katrina with people pushed out of their homes and 
not an adequate system to give them shelter.
    I know that FEMA recently signed an agreement with the 
American Red Cross to co-lead efforts for mass care and 
sheltering after a disaster, including what we call today a 
catastrophic disaster. What will be the capacity in most parts 
of the country? In other words, I know 430,000 is an enormous 
number, but how many people, under FEMA's current organization, 
will we be able to shelter who have been made homeless by a 
catastrophe?
    Mr. Fugate. Mr. Chairman, that, a lot of times, is going to 
be based upon the State and the types of hazards they have. In 
the State of Florida where I came from, we had shelter capacity 
getting up to over 800,000, but we would not expect to use that 
because very rarely would a hurricane produce that big of an 
evacuation.
    But this is what we are doing. I think this comes back to 
what the IG and GAO have really come back on. When we are 
trying to talk about preparedness, unless we are planning 
against a number, it is hard. It is about how you get traction 
because everything is always localized or state-based.
    So in our strategic plan, when we said we were going to do 
all this stuff, I said, well, put a number against it because I 
cannot measure it.
    Chairman Lieberman. Right.
    Mr. Fugate. So we started looking at, if you looked at what 
we call the maximum-maximum, you look at an improvised nuclear 
device, the most catastrophic thing we could think of in a 
metropolitan area, if we looked at our worst Category 5 
hurricane hitting in the most populated areas, if we look at 
these large earthquakes, what are these upper end numbers?
    And we start finding that the numbers actually look, 
primarily at the numbers we are seeing from Japan, we were 
actually looking at these types of numbers.
    Chairman Lieberman. So it would potentially be over 400,000 
or in that range?
    Mr. Fugate. Yes, sir. We have actually looked at, for 
casualties requiring medical assistance, several hundred 
thousand. This is why we were trying to plan our logistics and 
ability to move to those areas. We know we have the risk, but 
also where we did not see it coming, but all of a sudden it is 
there. For about a million-and-a-half. We need to see if we get 
enough supplies and provide enough capacity.
    And what may happen is you may not be able to shelter 
people in the surrounding areas, because if the devastation is 
that great----
    Chairman Lieberman. Right.
    Mr. Fugate [continuing]. What you may end up having to do 
is move people to where you could shelter them.
    Chairman Lieberman. Right.
    Mr. Fugate. And that is one of the advantages of working 
with the Red Cross and other volunteer organizations, as we saw 
in Hurricane Katrina when we had to actually start moving 
people out of there, is to move them to areas outside of that 
area and provide that. And then this is, again, in the short-
term shelter phase of getting people where we are meeting the 
most basic needs of medical care, food, water, and a roof over 
their heads, until we can see what is next.
    Is this some place we can get back to, or in the case we 
are seeing there, this devastation will not be repaired 
quickly. You are not going to be doing temporary housing there. 
You are going to have to find a longer-term housing solution as 
people make a decision about what is the next step.
    Chairman Lieberman. So are we prepared now to temporarily 
house that number of people?
    Mr. Fugate. I think we could say it would not be in any one 
area. We would have to distribute those folks across the 
country.
    Chairman Lieberman. Right.
    Mr. Fugate. But these are the things we are planning 
against, and I think this is where we are looking at. What does 
it take to get there and how do we build that capacity based 
upon the local and State, but where do we fill those gaps? And 
so, if you go to certain parts of the country, yes, they have 
that capability because of the threats they face. But what if 
it occurs somewhere we were not expecting that?
    Chairman Lieberman. Right.
    Mr. Fugate. We do not have a hazard they planned against, 
but we still have to meet that need. So this is where we are 
trying to go on national preparedness, looking at these events, 
add them up, and determining the upper number. Can you move 
enough supplies in to provide emergency food, medical care, and 
basic sheltering for that population? And if you cannot bring 
it to them, can you take them from that area and get them to 
where they can? This really becomes, I think, critical when we 
are talking about housing. So this is what we are planning 
against, and also looking at the time frames to do it.
    Chairman Lieberman. Mr. Skinner, did you have a response 
you wanted to offer for that?
    Mr. Skinner. I agree. FEMA, from the lessons learned in 
Hurricane Katrina, has actually taken some very positive steps 
towards sheltering and short-term housing----
    Chairman Lieberman. Right.
    Mr. Skinner. And they are also experimenting with different 
types of housing. It can be a very complex issue. One of the 
concerns that we have, what we are witnessing now after 
Hurricane Katrina and as well as the disasters in Florida, is 
not sheltering or short-term housing, but it is long-term 
housing. And that is an issue that I think still needs to be 
addressed.
    There are still some thorny relationships that have to be 
built to accommodate the population for its long-term housing 
because these things will oftentimes last 2, 3, or 4 years 
before you can move back home.
    Chairman Lieberman. Right. Thanks. One of the things our 
Committee has done, we feel at various times that we have to 
ask extreme questions, and we have done some hearings and work 
on what our preparedness would be to respond to, as I mentioned 
earlier, the explosion of a radiological device by a terrorist, 
or a nuclear weapon.
    And one of the striking conclusions is how people behave in 
response to that can actually save tens of thousands of lives. 
In some cases, a decision not to run, to evacuate, will save 
your life. And we heard expert testimony that is what 
particularly critical, and, of course, it would be critical in 
the case of an event at a nuclear power plant as well, is 
public messaging.
    So I wanted to ask you, Administrator Fugate, if you could 
give us kind of a status report about where FEMA is now on 
effective messaging to the public in the case of a radiological 
incident.
    Mr. Fugate. Mr. Chairman, the first thing people have to 
understand is that, surprising as it may be and this is what 
the experts told you, a nuclear detonation is actually more 
survivable than people realize if they know those important 
steps.
    This was actually done and it got overshadowed by the 
situation in Japan, but we were already scheduled to do this--
we did what we call a webinar with our Citizen Corps Program 
with the Department of Energy and their experts to start 
talking about messaging and sheltering in place and working 
with our Citizen Corps Councils.
    So we did this as part of a webinar to really start 
bringing up these topics that have historically been so 
difficult to talk about if this does happen, these are the 
things people need to do. So this was a webinar that was 
actually done this week where we brought people in, and it 
allows us to bring people very cost-effectively into an 
environment where we can have subject matter experts briefing 
them.
    But starting this process using our Citizen Corps Councils 
as the locals to start thinking about how you message this 
locally, what is going to be effective--and again, there is 
actually a book with this title, ``How do you Think About the 
Unthinkable''--and communicate that in a way that is not based 
upon fear, but of the actions you could take to survive.
    So we are working with Department of Energy experts. Their 
national laboratories are really who are the experts in these 
areas, and actually we are conducting this webinar this week on 
how we work with our Citizen Corps Councils and talk about 
something that is very difficult to talk about.
    Chairman Lieberman. So, that is a work in progress now?
    Mr. Fugate. Yes, sir.
    Chairman Lieberman. But obviously, you are working on it. I 
presume that you train all the local areas around the country 
to use both existing communication systems, public ones like 
radio and television, but also, obviously, now you use Internet 
and cellphone and the like?
    Mr. Fugate. Yes, sir. Again, this is what I really 
challenged our team on, there is this tendency that we make 
people communicate the way we are set up to communicate----
    Chairman Lieberman. Right.
    Mr. Fugate [continuing]. But not always recognizing that 
there are different tools and the people are not using the same 
tools we are. So how do you start incorporating that in and 
look at how people communicate versus the way we are prepared 
to do it?
    So looking at things in social media and other tools. I 
will give you a really short example because I know that you 
want to ask more questions. But we provide information to the 
public on Web pages. Well, most disasters, if I am evacuated in 
a shelter, do I have a computer and a Web page I can get to?
    Chairman Lieberman. Right.
    Mr. Fugate. But I may have a smartphone.
    Chairman Lieberman. Correct.
    Mr. Fugate. And we have seen in many of our events, the 
phones are actually working, even in Haiti after the 
earthquake, surprisingly. So we went back and said, ``Let us 
quit making people go to a Web page when, if they are going to 
be on a mobile phone, let us change our delivery.
    So we created a mobile FEMA page--it is www.m.FEMA.gov--
that works well on a cellphone, because you do not need to see 
our organization charts, you do not need to see any of our 
pretty pictures and graphs. What you need is the information 
about what is happening. And so, we have been really trying to 
look at how people are using these tools, what makes sense, how 
are they going to get information, and trying to put it in a 
way that is useful to them, not what was convenient for us.
    Chairman Lieberman. Good work. That is very sensible. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Skinner, in your testimony you gave us the depressing 
news that fraud and improper payments have plagued FEMA for a 
very long time. I remember when I was Chairman of this 
Committee back in the good old days, that I held a hearing to 
look at fraud after Hurricane Andrew, and we found improper 
payments. It was Senator Bill Nelson who suggested that we have 
those hearings.
    Then Hurricane Katrina hit and we found just terrible, 
hundreds of millions of dollars in improper payments, fraud, 
and abuse. It is troubling to me that you can go back decades, 
apparently, and there still is a lack of attention to this 
problem.
    I was thinking about the fact that the President's budget 
cuts FEMA's budget, and it cuts it in ways that may actually be 
harmful because it cuts some IT projects out. But what is even 
more disturbing to me is perhaps these cuts would not be 
necessary if we had not lost more than a billion dollars over 
the years in improper payments. Certainly that money could be 
put to better use.
    Could you help guide us on what we should be asking FEMA to 
do? What kind of controls should be put in place so when the 
next catastrophe inevitably hits, we do not see a repetition of 
widespread fraud, waste, and abuse? You referred to the work 
that was done with the stimulus bill, and I agree with you that 
the transparency and accountability was much better. But what 
specifically would you recommend be done?
    Mr. Skinner. I think, first, Administrator Fugate coined it 
very concisely, and that is, FEMA needs to act fast, but not 
act hastely. With regards to their individual assistance 
programs, there is a mindset that FEMA has to have the money 
out on the street within hours. Therefore, FEMA will make a 
blanket payment and worry about the fraud later. Unfortunately, 
FEMA does not have the resources or the wherewithal to go back 
and try to recoup payments that were improperly distributed.
    With improved internal controls, it may slow the process up 
a few hours, but not days or weeks or, like the old days in 
Hurricane Hugo where it took months to make payments, or 
Hurricane Andrew, where it took weeks to make payments, or the 
Northridge earthquare, where it took weeks. We can still make 
timely payments to those that are deserving, that are in need, 
but at the same time be able to offer a screening process and 
has the internal controls and red flags in place to put aside 
those applications that are in question, whether they be just 
because of poor information or because it is a fraudulent 
application. That is one thing.
    The second thing is, I think, with the public assistance 
programs, we can do a better job there as well with regards to 
providing better oversight. The Recovery Board, responsible for 
the oversight of close to $800 billion, were able to produce 
expenditure reports. The board requires anyone that is 
receiving any funds, State or local governments, or primary 
contractor at the sub-grantee level, to report to the Recovery 
Board.
    The system is already in place. Anyone can use this system. 
The Department of Energy introduced this system years ago and 
it is something, I think, FEMA might want to consider because I 
believe that transparency drives accountability.
    What you do not have is just one IG looking at you. You 
have millions of IGs looking at you, because when the local 
citizens see where the money is going, how it has been spent, 
then they can report that there is something amiss, that the 
money is not going where it should, or that contractors are 
receiving preferential treatment or are not performing as they 
should. And that is what drives the accountability.
    We can produce that type of reporting after a disaster and 
train the State and locals, it is not difficult. Everyone 
thought it would be. Everyone thought it would drive costs up 
at State and local budgets. It did not.
    The technology today now allows you to take that 
information and transform it into very usable formats that can 
be manipulated to permit your own personal assessments. 
Reporters may want to take the data and manipulate it to 
determine what type of demographics certain funds are going to. 
State and local governments could take it to see what type of 
projects we are spending money on. Education versus highways or 
airports, things of that nature. It can be manipulated to meet 
your individual needs.
    At the same time, the Recovery Board developed a screening 
process to assist program managers. When contracts or grants 
are awarded, the board can run them through open-source 
information systems as well as law enforcement information 
systems, and give advise--whether those recipients have 
associations with anyone that may have tried to defraud the 
government in the past.
    And, as a result, the board is able to stop those grants, 
those contracts, early on before money was spent. Because once 
the money is spent, it is very difficult to get it back.
    Senator Collins. Do you not think there is also a deterrent 
effect when you announce that there is going to be an 
aggressive effort to prevent waste, fraud, abuse, 
mismanagement, and improper payments? I think one reason that 
the Recovery Board was successful, largely, is it was set up 
from the beginning. It was very well publicized. There were Web 
sites to track spending, and as you said, that enlisted the 
public to help be the eyes and ears.
    But I would also argue that there is a deterrent impact if 
you go after some of the fraud. I know FEMA has argued that it 
is too expensive to go after some of this, ``small dollar 
fraud'' that, in a cumulative sense, is huge amounts of money. 
But, in fact, I think it is worth the money of going after it 
because of the message it sends that it is not going to be 
tolerated.
    Mr. Skinner. Absolutely, and I personally witnessed that 
after Hurricanes Andrew and Katrina, and after the Northridge 
earthquake. A good example is in Northridge. Early on, we made 
somewhere between a dozen to two dozen arrests within the first 
2 weeks after FEMA checks went out. When we made those arrests, 
we publicized them on the radio, on the television, in the 
newspaper, every media outlet that we could. Within days, $20 
million, $30 million was voluntarily returned to FEMA.
    I witnessed the same thing after Hurricane Andrew. After we 
made four arrests, the following day, $11 million was returned 
to FEMA. It does have a deterrent effect.
    Also, a contractor or grantee is less inclined to steal 
funds because of the transparency that exists. We know where 
the funds are going, we are watching how it is being spent. 
Those contractors or grantees who intend to steal, will 
oftentimes back off knowing that it is just too risky.
    Senator Collins. Mr. Fugate, you have heard what Mr. 
Skinner has said, that it is worth going after this money. I 
realize you were not Administrator at the time of Hurricane 
Katrina, but, in fact, there has been a new process that the 
Chief Counsel has for recouping improper payments that has been 
languishing since late 2008. Yesterday we received word that 
FEMA is going to start implementing the new process.
    That is a long gap that really sends the wrong message. So 
I guess I am asking for you to give a commitment to put in 
those internal controls. I think it is a false choice between 
providing the money quickly enough and providing it in a way 
that guards against fraud. In today's world with the technology 
we have, it is not an either/or proposition. So I want to 
encourage you. I am going to ask you, are you going to go after 
some of these improper payments?
    Mr. Fugate. The answer is yes, particularly those 
recoupments where we know that we had duplication of benefits. 
And again, if it was fraud, I think the IG would agree that 
since I have been there, if I find fraud, I have been pretty 
aggressive about referring it as soon as we know it. And that I 
also agree that those that have done this willfully needed to 
be treated as fraud.
    But where we have had those that have oftentimes, either a 
lack of information, duplication of benefits, or were not 
eligible, is to seek that reimbursement. We are doing it. I 
would also like to point out that the IG was also correct in 
that it has got to be speed, not haste. So the question is, why 
are we giving them money? What is the need we are having to 
meet that we are not meeting otherwise?
    I think it is not the size of scale to reassure you that it 
would scale up in a catastrophic disaster, but in the floods in 
Tennessee where we believe it was about $100 million--it was 
bigger than this--but the $100 million in assistance in the 
first 30 days, nobody got a check unless they registered, had 
their home inspection, and they received their funds.
    Again, we were working on speed. We got the inspectors in 
there. Oftentimes, the turn-around time was in several days, so 
we did not create the demand to bypass that system. And we also 
worked very aggressively with the Department of Housing and 
Urban Development (HUD) to go into the shelters because these 
people that were in shelters were going to need disaster 
housing assistance, and get them into those Disaster Housing 
Assistance Programs (DHAP).
    It was not to the scale we saw in Hurricane Katrina, but we 
want to have a positive verification that you were actually 
living where you say you were, that we actually had the 
inspector get there, verify the damages, and again, as we go 
through this and look at the recoupments on that disaster, did 
we drive that error rate down through that process and with 
those controls?
    And the other piece of this is, again in responding, if we 
can achieve the goal of meeting those basic needs and decrease 
the need to default to financial assistance, which generally is 
a sign that you cannot get supplies in, you are not able to get 
enough critical infrastructure up, and you are not meeting 
basic needs, so what you are going to do is basically give 
money to people and say, ``Go figure it out yourself.''
    That, I think, comes back to that aggressive response at 
the front end. And then look at the financial assistance, not 
as the primary tool we use, but to help them as we start 
getting stabilized and move into those first steps of recovery.
    Senator Collins. And were not those $2,000 debit cards just 
an invitation to improper spending? I mean, look what they were 
used for: Firearms, bail bonds, diamond rings, entertainment. 
They were not used for food, water, medical supplies in far too 
many cases. Should we be giving out $2,000 debit cards with few 
questions asked? You were not there at the time.
    Mr. Fugate. Yes. I think the Senator makes the point that--
again, I think this is something the IG can go back and say in 
Hurricanes Hugo and Andrew, in Loma Prieta, and other cases, if 
you are not meeting the basic needs, and the response that 
oftentimes is the fallback and it does invite a lot of 
challenges to administer.
    Senator Collins. I want to say, here and now, that we are 
not going to give out $2,000 debit cards.
    Mr. Fugate. We are not doing debit cards anymore, and that 
program went away. But I have to be cautious--an example would 
be the tsunami itself. We may not be able to get in there and 
do home inspections, so we may have to look at other ways to 
verify that people lived there.
    This is where the IG is giving us recommendations to use 
tools like using the type of things you could do if anybody was 
applying for a loan, getting the background information, 
utility bills, other information to verify, versus what has 
happened before where you just go and say, everybody in this 
ZIP code is going to get assistance.
    So again, as people register, we may not be able to go do 
an inspection. Are there other ways to minimize the number of 
people applying for assistance by showing us some way that they 
were in that area without necessarily doing a home inspection? 
But where we can, it makes it very, I think, efficient to be 
able to have an inspector go to where you were living, verify 
it was damaged, it was in a disaster.
    I think that is a huge step to reduce the level of fraud. 
And then oftentimes, we will see if it was ineligible or 
duplication of benefits because of insurance, not because we 
were in such haste we were not able to take those steps.
    Senator Collins. Thank you. I realize I have gone way over 
my time and I apologize.
    Chairman Lieberman. No, not at all. It was important, and 
the answer was no about the debit card program.
    As I look back to Hurricane Katrina, to make a long and 
complicated story too short, first off, we had an extraordinary 
natural disaster event, as, of course, has happened now in 
Japan.
    But part of what happened is that all levels of government, 
including the Federal Government and FEMA, did not act quickly 
and preventably, and as it became clear that was so, 
particularly with the television coverage, everybody became 
horrified about how people were being treated or not taken care 
of on the Gulf Coast. In some sense, the government overreacted 
and started to kind of throw out assistance in a way that was 
just--it was terribly wasteful and was also inviting fraud. 
That is just what we got.
    Mr. Skinner, do you want to comment on that at all?
    Mr. Skinner. I think that is exactly what happened, and it 
was the same thing after Hurricane Andrew because the cavalry 
was slow to arrive----
    Chairman Lieberman. Right.
    Mr. Skinner [continuing]. And the best way to treat the 
situation was to get funds out on the street as fast as 
possible whether you were eligible or not.
    Chairman Lieberman. Yes. And that is where--something you 
said earlier, Mr. Fugate, about getting supplies out there, 
meeting the needs, and once you do that, you do not have to 
start throwing debit cards or money or anything else around.
    Mr. Fugate. Well, the other issue for both you and the 
Ranking Member is, because the amount of funds that we provide 
are really not designed to make people whole----
    Chairman Lieberman. Right.
    Mr. Fugate [continuing]. The less money that we give them, 
incrementally that takes away from the total amount, because 
again, it comes back to the issue of, if they have lost 
everything and do not have insurance, which is why they are 
eligible for these funds, they do not qualify for a Small 
Business Administration (SBA) loan, you want as much of that 
money going towards their recovery, not their immediate needs.
    And so again, this also comes back to the preservation of 
what the intention of these funds were. It has never been the 
intent of Congress to make you whole after a disaster. These 
funds were to help you start recovery. And so, if we are 
putting these funds out ahead of time and they are not really 
getting to that point, it actually decreases the ability to 
support people when they really should start now to manage 
things on their own and being able to use these funds to start 
that recovery process, versus these funds going out in the 
emergency phase.
    And, as the IG has pointed out, if the basic needs are not 
being met and we are in this situation, we go from being fast 
to a lot of haste and then that, in turn, leads to fraud, 
waste, and the inability to really make sure we are good 
stewards of the funds. And so, we put a high premium on this 
idea of stabilization and speed to support this and drive, 
then, the next steps of that initial recovery with these funds 
so they are going towards the intended purposes.
    Chairman Lieberman. Right. Do you want to respond to that? 
I want to ask you, Administrator, just one more factual 
question which may be of interest to people watching relating 
to Japan.
    There has been concern, and I think a certain amount of 
confusion, about what the potential danger is to the United 
States from the nuclear plant problems in Japan. And 
particularly, as the media has been following it the last few 
days and the sense that the possibility of a meltdown at one of 
the plants or an explosion, if the emission of a large amount 
of radioactivity goes up, people have been worried about the 
extent to which the West Coast of the United States, 
particularly Hawaii, and obviously Guam and the Mariana 
Islands, are maybe subject to some danger. I wonder if you 
would give us your current sense of what that possibility is.
    Mr. Fugate. I will refer back to the statement made by the 
Chairman of the Nuclear Regulatory Commission. In looking at 
all these scenarios, they do not see any radiation reaching the 
United States that would be a danger or require protective 
actions. But in anticipation of this, FEMA in support of the 
Department of Energy--they have a system called RadNet, which 
is an existing system, that 24 hours a day, 7 days a week, 
monitors various elements--air, water, and other types of 
things across the country.
    And so, if we were to detect anything, we may detect things 
that are well below any levels that require action.
    Chairman Lieberman. Right.
    Mr. Fugate. This happened during Chernobyl. But we did not 
currently have any monitors in our territories, particularly 
Guam and the Commonwealth of the Northern Mariana Islands. So 
we were in a support role again. The Environmental Protection 
Agency (EPA) is in the lead role. They deployed monitors out to 
augment that network they already have, as well as supporting 
Alaska with additional monitors, particularly out in the 
Aleutian Islands.
    Chairman Lieberman. Right.
    Mr. Fugate. So this is two-part, one, based upon the 
scenario that the Nuclear Regulatory Commission does not see 
this reaching the U.S. territories or the West Coast. But we 
also have an active monitoring system that EPA expanded to be 
able to do active monitoring to verify that and provide that 
information. And the EPA is, again, looking at this, not that 
we think we are going to get something, but we need to be able 
to answer the question, Well, are you testing, are you 
monitoring, are you sure?
    And so, this was the decision, to send these monitors out 
to Guam and the Commonwealth of the Northern Mariana Islands, 
as well as in the Aleutian Islands where we did not currently 
have existing monitors.
    Chairman Lieberman. As I understand it, we have more than 
100 existing monitors along the West Coast----
    Mr. Fugate. Yes, sir.
    Chairman Lieberman [continuing]. Measuring radiation.
    Mr. Fugate. In fact, this is a public Web site that EPA 
operates, that you can go to their Web page and take a look at 
where these sites are and their current activities, what they 
monitor and the purpose and the history of the program.
    Chairman Lieberman. So I presume that, just trying to be 
helpful, that people, including on the West Coast, should not 
yet be taking potassium iodine pills as a preventive of any 
kind because right now there is no risk, and there is some 
slight risk of side effects from those pills for some people?
    Mr. Fugate. Yes, sir, Mr. Chairman. As I understand it, the 
State Department of Health for both the State of Hawaii and for 
the State of California are telling people that this is 
something they should not be doing. There is no indicator to do 
this. And their recommendation is that people not take 
potassium iodine in this event. It is not warranted, and, as 
you point out, there may be other concerns.
    So both of those State health offices are telling people 
that they do not recommend this and that they would not want 
you to take this based upon this event because they do not see 
where there would be any need in this event, and we do have the 
active monitoring that is taking place now.
    Chairman Lieberman. I appreciate those answers. I hope they 
are helpful to people. I thank the three witnesses. Senator 
Collins and I were commenting to each other here that in a 
sense, we were conducting two hearings at once, one on the IG's 
report and on the management of FEMA, and then the other on 
what has happened in Japan. We tried to bring them together.
    I appreciate the patience of the witnesses as we did that. 
I appreciate the work of the witnesses. All of your statements, 
of course, will be included in the record in full. We are going 
to keep the record of this hearing open for 15 days for any 
additional statements you would like to put in the record and 
any questions that our colleagues or we may have of you.
    Senator Collins, do you have anything more?
    Senator Collins. No.
    Chairman Lieberman. Thank you very much. With that, the 
hearing is adjourned.
    [Whereupon, at 5:27 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7118.001

[GRAPHIC] [TIFF OMITTED] T7118.002

[GRAPHIC] [TIFF OMITTED] T7118.003

[GRAPHIC] [TIFF OMITTED] T7118.004

[GRAPHIC] [TIFF OMITTED] T7118.005

[GRAPHIC] [TIFF OMITTED] T7118.006

[GRAPHIC] [TIFF OMITTED] T7118.007

[GRAPHIC] [TIFF OMITTED] T7118.008

[GRAPHIC] [TIFF OMITTED] T7118.009

[GRAPHIC] [TIFF OMITTED] T7118.010

[GRAPHIC] [TIFF OMITTED] T7118.011

[GRAPHIC] [TIFF OMITTED] T7118.012

[GRAPHIC] [TIFF OMITTED] T7118.013

[GRAPHIC] [TIFF OMITTED] T7118.014

[GRAPHIC] [TIFF OMITTED] T7118.015

[GRAPHIC] [TIFF OMITTED] T7118.016

[GRAPHIC] [TIFF OMITTED] T7118.017

[GRAPHIC] [TIFF OMITTED] T7118.018

[GRAPHIC] [TIFF OMITTED] T7118.019

[GRAPHIC] [TIFF OMITTED] T7118.020

[GRAPHIC] [TIFF OMITTED] T7118.021

[GRAPHIC] [TIFF OMITTED] T7118.022

[GRAPHIC] [TIFF OMITTED] T7118.023

[GRAPHIC] [TIFF OMITTED] T7118.024

[GRAPHIC] [TIFF OMITTED] T7118.025

[GRAPHIC] [TIFF OMITTED] T7118.026

[GRAPHIC] [TIFF OMITTED] T7118.027

[GRAPHIC] [TIFF OMITTED] T7118.028

[GRAPHIC] [TIFF OMITTED] T7118.029

[GRAPHIC] [TIFF OMITTED] T7118.030

[GRAPHIC] [TIFF OMITTED] T7118.031

[GRAPHIC] [TIFF OMITTED] T7118.032

[GRAPHIC] [TIFF OMITTED] T7118.033

[GRAPHIC] [TIFF OMITTED] T7118.034

[GRAPHIC] [TIFF OMITTED] T7118.035

[GRAPHIC] [TIFF OMITTED] T7118.036

[GRAPHIC] [TIFF OMITTED] T7118.037

[GRAPHIC] [TIFF OMITTED] T7118.038

[GRAPHIC] [TIFF OMITTED] T7118.039

[GRAPHIC] [TIFF OMITTED] T7118.040

[GRAPHIC] [TIFF OMITTED] T7118.041

[GRAPHIC] [TIFF OMITTED] T7118.042

[GRAPHIC] [TIFF OMITTED] T7118.043

[GRAPHIC] [TIFF OMITTED] T7118.044

[GRAPHIC] [TIFF OMITTED] T7118.045

[GRAPHIC] [TIFF OMITTED] T7118.046

[GRAPHIC] [TIFF OMITTED] T7118.047

[GRAPHIC] [TIFF OMITTED] T7118.048

[GRAPHIC] [TIFF OMITTED] T7118.049

[GRAPHIC] [TIFF OMITTED] T7118.050

[GRAPHIC] [TIFF OMITTED] T7118.051

[GRAPHIC] [TIFF OMITTED] T7118.052

[GRAPHIC] [TIFF OMITTED] T7118.053

[GRAPHIC] [TIFF OMITTED] T7118.054

[GRAPHIC] [TIFF OMITTED] T7118.055

[GRAPHIC] [TIFF OMITTED] T7118.056

[GRAPHIC] [TIFF OMITTED] T7118.057

[GRAPHIC] [TIFF OMITTED] T7118.058

[GRAPHIC] [TIFF OMITTED] T7118.059

[GRAPHIC] [TIFF OMITTED] T7118.060

[GRAPHIC] [TIFF OMITTED] T7118.061

[GRAPHIC] [TIFF OMITTED] T7118.062

[GRAPHIC] [TIFF OMITTED] T7118.063

[GRAPHIC] [TIFF OMITTED] T7118.064

[GRAPHIC] [TIFF OMITTED] T7118.065

[GRAPHIC] [TIFF OMITTED] T7118.066

[GRAPHIC] [TIFF OMITTED] T7118.067

[GRAPHIC] [TIFF OMITTED] T7118.068

[GRAPHIC] [TIFF OMITTED] T7118.069

[GRAPHIC] [TIFF OMITTED] T7118.070

[GRAPHIC] [TIFF OMITTED] T7118.071

[GRAPHIC] [TIFF OMITTED] T7118.072

[GRAPHIC] [TIFF OMITTED] T7118.073

[GRAPHIC] [TIFF OMITTED] T7118.074

[GRAPHIC] [TIFF OMITTED] T7118.075

[GRAPHIC] [TIFF OMITTED] T7118.076

[GRAPHIC] [TIFF OMITTED] T7118.077

[GRAPHIC] [TIFF OMITTED] T7118.078

[GRAPHIC] [TIFF OMITTED] T7118.079

[GRAPHIC] [TIFF OMITTED] T7118.080

[GRAPHIC] [TIFF OMITTED] T7118.081

[GRAPHIC] [TIFF OMITTED] T7118.082

[GRAPHIC] [TIFF OMITTED] T7118.083

[GRAPHIC] [TIFF OMITTED] T7118.084

[GRAPHIC] [TIFF OMITTED] T7118.085

[GRAPHIC] [TIFF OMITTED] T7118.086

[GRAPHIC] [TIFF OMITTED] T7118.087

[GRAPHIC] [TIFF OMITTED] T7118.088

[GRAPHIC] [TIFF OMITTED] T7118.089

[GRAPHIC] [TIFF OMITTED] T7118.090

[GRAPHIC] [TIFF OMITTED] T7118.091

[GRAPHIC] [TIFF OMITTED] T7118.092

[GRAPHIC] [TIFF OMITTED] T7118.093

[GRAPHIC] [TIFF OMITTED] T7118.094

[GRAPHIC] [TIFF OMITTED] T7118.095

[GRAPHIC] [TIFF OMITTED] T7118.096

[GRAPHIC] [TIFF OMITTED] T7118.097

[GRAPHIC] [TIFF OMITTED] T7118.098

[GRAPHIC] [TIFF OMITTED] T7118.099

[GRAPHIC] [TIFF OMITTED] T7118.100

[GRAPHIC] [TIFF OMITTED] T7118.101

[GRAPHIC] [TIFF OMITTED] T7118.102

[GRAPHIC] [TIFF OMITTED] T7118.103

[GRAPHIC] [TIFF OMITTED] T7118.104

[GRAPHIC] [TIFF OMITTED] T7118.105

[GRAPHIC] [TIFF OMITTED] T7118.106

[GRAPHIC] [TIFF OMITTED] T7118.107

[GRAPHIC] [TIFF OMITTED] T7118.108

[GRAPHIC] [TIFF OMITTED] T7118.109

[GRAPHIC] [TIFF OMITTED] T7118.110

[GRAPHIC] [TIFF OMITTED] T7118.111

[GRAPHIC] [TIFF OMITTED] T7118.112

[GRAPHIC] [TIFF OMITTED] T7118.113

[GRAPHIC] [TIFF OMITTED] T7118.114

[GRAPHIC] [TIFF OMITTED] T7118.115

[GRAPHIC] [TIFF OMITTED] T7118.116

[GRAPHIC] [TIFF OMITTED] T7118.117

[GRAPHIC] [TIFF OMITTED] T7118.118

[GRAPHIC] [TIFF OMITTED] T7118.119

[GRAPHIC] [TIFF OMITTED] T7118.120

[GRAPHIC] [TIFF OMITTED] T7118.121

[GRAPHIC] [TIFF OMITTED] T7118.122

[GRAPHIC] [TIFF OMITTED] T7118.123

[GRAPHIC] [TIFF OMITTED] T7118.124

[GRAPHIC] [TIFF OMITTED] T7118.125

[GRAPHIC] [TIFF OMITTED] T7118.126

[GRAPHIC] [TIFF OMITTED] T7118.127

[GRAPHIC] [TIFF OMITTED] T7118.128

[GRAPHIC] [TIFF OMITTED] T7118.129

[GRAPHIC] [TIFF OMITTED] T7118.130

[GRAPHIC] [TIFF OMITTED] T7118.131

[GRAPHIC] [TIFF OMITTED] T7118.132

[GRAPHIC] [TIFF OMITTED] T7118.133

[GRAPHIC] [TIFF OMITTED] T7118.134

[GRAPHIC] [TIFF OMITTED] T7118.135

[GRAPHIC] [TIFF OMITTED] T7118.136

[GRAPHIC] [TIFF OMITTED] T7118.137

[GRAPHIC] [TIFF OMITTED] T7118.138

[GRAPHIC] [TIFF OMITTED] T7118.139

[GRAPHIC] [TIFF OMITTED] T7118.140

[GRAPHIC] [TIFF OMITTED] T7118.141

[GRAPHIC] [TIFF OMITTED] T7118.142

[GRAPHIC] [TIFF OMITTED] T7118.143

[GRAPHIC] [TIFF OMITTED] T7118.144

[GRAPHIC] [TIFF OMITTED] T7118.145

[GRAPHIC] [TIFF OMITTED] T7118.146

[GRAPHIC] [TIFF OMITTED] T7118.147

[GRAPHIC] [TIFF OMITTED] T7118.148

[GRAPHIC] [TIFF OMITTED] T7118.149

[GRAPHIC] [TIFF OMITTED] T7118.150

[GRAPHIC] [TIFF OMITTED] T7118.151

[GRAPHIC] [TIFF OMITTED] T7118.152

[GRAPHIC] [TIFF OMITTED] T7118.153

[GRAPHIC] [TIFF OMITTED] T7118.154

[GRAPHIC] [TIFF OMITTED] T7118.155

[GRAPHIC] [TIFF OMITTED] T7118.156

[GRAPHIC] [TIFF OMITTED] T7118.157

[GRAPHIC] [TIFF OMITTED] T7118.158

[GRAPHIC] [TIFF OMITTED] T7118.159

[GRAPHIC] [TIFF OMITTED] T7118.160

[GRAPHIC] [TIFF OMITTED] T7118.161

[GRAPHIC] [TIFF OMITTED] T7118.162

[GRAPHIC] [TIFF OMITTED] T7118.163

[GRAPHIC] [TIFF OMITTED] T7118.164

[GRAPHIC] [TIFF OMITTED] T7118.165

[GRAPHIC] [TIFF OMITTED] T7118.166

[GRAPHIC] [TIFF OMITTED] T7118.167

[GRAPHIC] [TIFF OMITTED] T7118.168

[GRAPHIC] [TIFF OMITTED] T7118.169

[GRAPHIC] [TIFF OMITTED] T7118.170

[GRAPHIC] [TIFF OMITTED] T7118.171

[GRAPHIC] [TIFF OMITTED] T7118.172

[GRAPHIC] [TIFF OMITTED] T7118.173

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
